<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                    
                         [H.A.S.C. No. 115-74]

       TERRORISM AND IRAN: DEFENSE CHALLENGES IN THE MIDDLE EAST

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2018


                                     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-997                     WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                Jennifer Bird, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Votel, GEN Joseph L., USA, Commander, U.S. Central Command.......     2

                                APPENDIX

Prepared Statements:

    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    48
    Thornberry, Hon. William M. ``Mac''..........................    47
    Votel, GEN Joseph L..........................................    50

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cook.....................................................    99
    Mr. O'Rourke.................................................    99
    Ms. Stefanik.................................................    99
    Ms. Tsongas..................................................    99
       
.       
       TERRORISM AND IRAN: DEFENSE CHALLENGES IN THE MIDDLE EAST

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, February 27, 2018.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    We welcome back to the committee the commander of the U.S. 
Central Command, General Joseph Votel. We are particularly 
interested in hearing General Votel's views on the changes that 
the new National Defense Strategy brings to his area of 
responsibility.
    The strategy's emphasis on strategic competition has 
implications for a region where Russian influence and presence 
is much greater now than it was before the Syrian conflict 
began, a region that is one of the targets of the Chinese 
whole-of-nation effort to increase its sway, and a region where 
the Iranians are aggressively expanding its wide arc of control 
to the detriment of its neighbors.
    These developments and the continuing threat of terrorism 
in and emanating from the CENTCOM [U.S. Central Command] 
region, suggests that the United States cannot afford to remove 
our attention or our presence from this vital area. 
Fortunately, we have a number of strong allies and partners 
that are able and willing to actively defend our joint 
interests, but as we have painfully learned in recent years, 
there is simply no substitute for the United States.
    When we withdraw prematurely, the world, including the 
threats to our homeland, can rapidly grow more dangerous. The 
challenge, however, is that CENTCOM has received the lion's 
share of military resources for some time. And while it is 
important to remain, we have to be more active in other vital 
areas of the world at the same time. The recent budget 
agreement helps, but it will take time to rebuild and field 
needed capability. In these circumstances, General Votel has 
his hands full in making sure that U.S. national security is 
protected.
    Let me yield to the acting ranking member, the gentlelady 
from California, Mrs. Davis.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 47.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    I ask unanimous consent that the ranking member's statement 
be entered into the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 48.]
    Mrs. Davis. Thank you.
    And I would also like to welcome General Votel and thank 
him for appearing today.
    The Central Command area of responsibility remains critical 
to our national interests, and we have to maintain a focus on 
security in the region. Reports of continuing military progress 
in the counter-ISIS [Islamic State of Iraq and Syria] campaign 
are encouraging, but military achievements alone, as I think we 
all know, will not guarantee long-term success. We must work 
with the international community and employ a whole-of-
government approach to foster and to sustain political, 
economic, and social conditions to ensure long-term stability. 
We cannot allow the region to fall into violent extremism 
again. To truly defeat ISIS, we must be just as determined to 
secure a durable peace as we have been to achieve a decisive 
military victory.
    We have long sought a stable end state in Afghanistan. For 
more than 16 years, the United States has concentrated on 
eliminating terrorist threats while working closely with our 
allies and our partners to train, advise, and assist Afghan 
forces to secure the country. Despite significant progress, 
Afghan forces are still in need of assistance, so where are we 
headed?
    Although our commitments to oppose violent extremism in 
Iraq, Syria, and Afghanistan are consuming, we must also remain 
alert to other regional security challenges. Despite an 
agreement regarding its nuclear program, Iran remains a 
designated state sponsor of terrorism, and it exerts 
destabilizing influence in Iraq, Syria, Lebanon, and Yemen. We 
must deter Iran from precipitating conflict and dissuade it 
from engaging in malign activities. And we must also deter 
Russia that is increasingly involved in the region as well.
    Certainly a complex set of issues, General, and I look 
forward to your testimony. Thank you very much for joining us.
    Thank you, Mr. Chairman.
    The Chairman. General, without objection, your full written 
statement will be made part of the record. Welcome back. The 
floor is yours.

STATEMENT OF GEN JOSEPH L. VOTEL, USA, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Votel. Chairman Thornberry, Congresswoman Davis, 
distinguished members of the committee, good morning, and thank 
you for the opportunity to appear today to discuss the current 
posture and state of readiness of the United States Central 
Command.
    I come before you today on behalf of the over 80,000 
members of the command. It is a dedicated team of military 
service members and civilians, along with our coalition 
partners, representing 70 nations and 4 international 
organizations, many of whom are forward-deployed across some of 
the most dangerous areas in the world. They sacrifice and risk 
on a daily basis, in many cases for the benefit of not only 
American strategic interests, but also the world's.
    Our people are the very best at what they do, and they, and 
especially their families, deserve our admiration and 
gratitude. It is my sincere honor to lead and be a member of 
such a fine team of dedicated professionals.
    I am approaching the 2-year mark of my time in command. 
This period has been both incredibly challenging and immensely 
rewarding during what has arguably been one of the most 
volatile times in this complex region's history.
    It has been 11 months since I last appeared before this 
committee, and since then, we have made considerable military 
progress in Iraq and Syria, Afghanistan, Egypt, Lebanon, and 
the maritime environment. However, we remain very clear-eyed 
regarding both the permanence of that progress and the 
challenges that we face in the future.
    In the past year, we have achieved incredible success 
against ISIS in Iraq and Syria. The Iraqi security forces and 
Syrian Democratic Forces are operating at their most effective 
levels since Operation Inherent Resolve began, and now, over 98 
percent of the territory previously held by ISIS in Iraq and 
Syria is no longer under their control. The destruction of the 
ISIS physical caliphate is imminent, and millions of displaced 
persons are returning home and beginning the long process of 
rebuilding. Now we must consolidate our gains by investing in 
the security forces' relationships and capabilities that will 
hold the territory and keep ISIS from returning.
    Based upon that progress, CENTCOM is conducting an 
operational alignment and rebalancing effort to achieve three 
specific goals. The first goal is to complete major combat 
operations in Iraq and Syria and bring the defeat-ISIS campaign 
to a responsible close. Military success in the campaign up to 
this point presents us an opportunity to reposition some of our 
resources from Iraq and Syria to Afghanistan in a manner that 
keeps the pressure on ISIS, but also sets us up to break the 
stalemate in Afghanistan.
    We retain sufficient capability to continue our efforts 
against ISIS despite the increasingly complex situation across 
Syria and especially in the northwest province of Afrin. We are 
fully engaged with our mission partners and the Department of 
State to carefully balance our objectives. Our partners on the 
ground in Syria have advanced us a long way towards our 
objectives, and we will stick with them through the completion 
of this fight. In Iraq, the Iraqi security forces are rapidly 
consolidating gains and preparing to support elections later 
this spring.
    The second goal is to prioritize the implementation of the 
South Asia strategy in Afghanistan. This strategy reaffirms the 
U.S. Government's enduring commitment to Afghanistan by 
reinforcing the two complementary military missions: The NATO 
[North Atlantic Treaty Organization]-led train, advise, and 
assist mission, and the U.S. counterterrorism mission. We are 
making sure that, with our support, the Afghan National Defense 
and Security Forces are well-postured to begin operations to 
seize the initiative, expand population control, and secure 
credible elections.
    Part and parcel of this effort is our regionalized approach 
to engage all countries with a stake in Afghanistan's 
stability, especially Pakistan. Our goal here is to develop a 
productive and trustful relationship that benefits both of our 
militaries and supports our objectives in the region.
    The third goal is to ensure that we have aligned our 
military efforts with our broader interagency and international 
efforts to neutralize, counterbalance, and shape the 
destabilizing impact that Iran has across the region. Make no 
mistake, while we continue to confront the scourge of 
terrorism, Iran's malign activities across the region pose a 
long-term threat to stability in this part of the world.
    We view ourselves, the military, as supporting the many 
other and more effective resources and capabilities of the U.S. 
Government and its partners in this endeavor. The recently 
published National Defense Strategy rightly identifies the 
resurgence of great power competition as our principal national 
security challenge, and we in CENTCOM see the effects of that 
competition throughout the region.
    Russia's support of the Assad regime has not only propped 
him up, but has also added complexity to the defeat-ISIS 
campaign. Diplomatically and militarily, Moscow plays both 
arsonist and firefighter, fueling tensions among all parties in 
Syria, the Syrian regime, Iran, Turkey, the Syrian Democratic 
Forces, the United States, and other coalition partners, then 
serving as an arbiter to resolve disputes attempting to 
undermine and weaken each party's bargaining positions.
    Despite the key role that our partners on the ground, the 
Syrian Democratic Forces, and the coalition have played in 
dealing defeat to ISIS, Russia has placed this progress at risk 
with their activities, which are not focused on defeating ISIS 
but, rather, on preserving their own influence and control over 
the outcome of the situation. It is clear that Russia's 
interests in Syria are Russia's interests, and not those of the 
wider international community.
    China is pursuing long-term, steady economic growth in the 
region through its One Belt, One Road policy, but it is also 
improving its military posture by connecting ports, such as 
Gwadar in Pakistan, with its first overseas military base in 
Djibouti, adjacent to the critical Bab-el-Mandeb. While Beijing 
claims both locations support peacekeeping and humanitarian 
operations, the new military base and port bolsters China's 
force projection into the region.
    Both China and Russia seek to fill in perceived gaps in 
U.S. interests by increasing defense cooperation and sales of 
their equipment to our regional partners. They both are also 
cultivating multidimensional ties to Iran. The lifting of U.N. 
[United Nations] sanctions under the Joint Comprehensive Plan 
of Action [JCPOA] open the path for Iran to resume membership 
application to the Shanghai Cooperation Organization.
    In addition, Russia, supported by Iran, continues to 
bolster a friendly regime in Syria, attempt to limit our U.S. 
military presence in Iraq and Afghanistan, and creates friction 
among NATO partners. Against this backdrop of increasing great 
power interaction are the enduring issues of the region: 
social, economic, and political challenges; high unemployment; 
falling oil prices; a youth bulge; large numbers of refugees 
and internally displaced persons; and long-standing border 
conflicts.
    We in CENTCOM stand ready with all of our partners to 
defend U.S. interests against these and other threats. Our 
strategic approach of preparing the environment, pursuing 
opportunities, and working to prevail wherever we can is 
working. We are postured for purpose, proactive in pursuing 
opportunities, and resolve to win.
    I would like to close by sharing three dynamics that we 
assess are essential to prevailing in this region. First, as I 
have previously testified, in the conduct of our campaigns in 
Iraq, Syria, and Afghanistan, as well as our operations in 
places like Yemen, Lebanon, and Egypt, we have adopted a by, 
with, and through approach that places a heavy reliance on 
indigenous partner nation forces. Our partners do not always 
want us to solve their problems for them, so we enable them to 
stand on their own. And while this approach does present its 
own challenges and can be more time consuming, it provides 
local solutions to local problems. This approach is not without 
risk, as we are seeing unfold in Syria today. But in general, 
it is proving very effective and will likely pay significant 
dividends going forward.
    Secondly, successful pursuit of U.S. objectives in this 
region only comes from an integrated approach aligned with 
interorganizational partners. Defense of the Nation is a team 
sport. This applies not just within the command, but with our 
fellow combatant commands, our component commands, our 
established combined and joint task forces, the Central 
Region's 18 country teams, and other departments, agencies, and 
organizations of the U.S. Government who have provided 
unwavering support over almost two decades of persistent 
conflict.
    Our allies in the region and the wider international 
community are equally as critical to supporting our mission. 
They directly support the CENTCOM headquarters with more than 
200 foreign military officers from 49 nations, all of whom are 
part of the success of CENTCOM, and we are grateful for and 
largely depend upon their partnership. As the National Defense 
Strategy captures clearly, strengthening existing relationships 
and building new ones will be key to our future success. We are 
doing this in CENTCOM every day.
    Finally, we could not do what we do on a daily basis 
without the support of Congress, and by extension, the American 
people. We sincerely appreciate this committee's continued 
strong support for our operations, authorities, and resources, 
and especially the same to the services, Special Operations 
Command, and other defense agencies that we rely upon for our 
military wherewithal.
    Your support will remain important as we contend with what 
potentially are generational struggles to defend our homeland 
from the threats outlined in our National Defense Strategy. 
U.S. Government commitment to the CENTCOM area of 
responsibility [AOR] is more important now than ever. For our 
part, we will support the third pillar of the National Defense 
Strategy, business reform, by continuing to be good stewards of 
the resources and authorities that Congress provides us.
    To close, I want to once again thank the outstanding men 
and women who comprise the United States Central Command, 
easily our finest and most precious resource. They continue to 
make great sacrifices and contributions to ensure the command 
meets our strategic objectives and protects our Nation's 
interests. We must ensure they have everything they need to do 
their jobs as effectively and efficiently as possible.
    We are also keenly aware and grateful for the sacrifices 
made by our families. They are vital members of the team, and 
we could not accomplish our mission without them. They, too, 
make important contributions and tremendous sacrifices every 
day to support us. I thank them on behalf of the command and a 
grateful Nation.
    Thank you again, and I look forward to answering your 
questions.
    [The prepared statement of General Votel can be found in 
the Appendix on page 50.]
    The Chairman. Thank you, General.
    Let me remind members that immediately upon conclusion of 
this open hearing, we will regather with General Votel upstairs 
in a classified session. So be in touch to know exactly when 
this open hearing ends.
    Since General Votel and I have had a chance to visit 
recently, I am going to yield 5 minutes, initially, to the 
gentlelady from Wyoming, Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman. Thank you, 
General Votel, for your service and for being here today.
    I wanted to ask you to elaborate in particular on the 
threat from Iran. And, you know, one of the many grave flaws of 
the JCPOA is the fact that it failed to deal with Iran's 
ballistic missile threat. And we are now seeing across the 
region increasingly evidence that Iran is transferring 
ballistic missiles and other conventional equipment to its 
allies in the region. Can you talk about exactly what you are 
seeing in this regard and what the Department of Defense [DOD] 
is in a position to be able to do to defend us and our allies 
against that threat?
    General Votel. Thank you, Congresswoman. I think you have 
highlighted one of the principal concerns that we have, the 
increasing, not just quantity, but quality of their ballistic 
missiles, and the export and movement of those capabilities to 
other groups and locations around the region. Certainly, as we 
have seen with Ambassador Haley in her demonstration most 
recently with some of the items recovered from Saudi Arabia, 
these weapons pose the threat of widening the conflict out of 
Yemen, and, frankly, put our forces, our embassy in Riyadh, our 
forces in the United Arab Emirates, at risk, as well as our 
partners. So I think first and foremost about their threat is 
the quality and the quantity that they have been pursuing over 
the last several years, particularly with respect to this.
    Their direct introduction of asymmetric capabilities 
concerns me as we look at places like the Bab-el-Mandeb where 
we see the introduction of coastal defense cruise missiles, 
some that have been modified. We know these are not 
capabilities that the Houthis had, so they have been provided 
to them by someone. That someone is Iran. The presence of 
explosive boats, the increased presence of mines in this area 
are all very similar to the layered threat that Iran has posed 
in the Straits of Hormuz, and we hold them accountable for 
that. So that is a second aspect of this.
    The third, of course, is their continually changing power 
projection model, not only their own forces, but their proxies 
and the partners that they are attempting to create around the 
region. I think these all give us very significant concerns.
    With respect to your question about what we are doing, we 
are working with Saudi Arabia and some of our partners to 
ensure that they are optimizing their capabilities that they 
have, many of them U.S.-provided capabilities, to ensure that 
they can defend themselves. And I would report to you in this 
session that we are seeing some progress in that regard.
    Ms. Cheney. Thank you, General. And in respect to Syria, 
could you talk a little bit about, there have been reports that 
we have seen facilities, for example, being built in Syria, 
reports in open source, Iranian missile facilities. Obviously, 
the threat there is significant, not just to U.S. interests, 
but also to allies like Israel. And could you talk more about 
what we might be able to do, particularly on the ground in 
Syria, as we see the challenge of--we have been very effective 
against ISIS there, but, obviously, our interests are still 
significantly threatened given the failed state situation we 
are facing.
    General Votel. Thank you, Congresswoman. As you know, 
countering Iran is not one of the coalition missions in Syria. 
That said, I think one of the most effective things that we can 
do in this particular area is build strong relationships.
    Ms. Cheney. General, I am sorry, could you just--I 
understand it is not potentially formally part of the mission, 
but it seems to me if we are focused on countering Iran, we 
need to be doing it every place our interests are threatened.
    General Votel. Absolutely. And one of the key ways that we 
are doing that is through our strong relationships that we are 
building with the Government of Iraq military forces, that 
include, not only forces that are in the interior, but 
certainly along their border. Our strong relationship with the 
Syrian Democratic Forces in the east and in the northern part 
of the country puts us in a position where we can impede Iran's 
objectives of establishing lines of communication through these 
critical areas and trying to connect Tehran to Beirut, for 
example.
    So I think, first and foremost, some of these indirect 
things we are doing are very, very important to that. I think 
beyond that, I think also continuing to highlight and 
illuminate their activities is extraordinarily important so 
that they can be addressed, not just with military means, but 
certainly with the other means that are available to us across 
government.
    Ms. Cheney. Thank you very much.
    I will yield back the balance of my time and look forward 
to discussing this further in the closed session.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And General Votel, 
again, thank you for joining us.
    As you just mentioned, and certainly in your written 
statement, the National Defense Strategy stated that great 
power competition, not terrorism, is now the primary focus of 
U.S. national security. Could you elaborate for us on those 
comments, and also talk about the shift in this national 
strategy? How exactly will it impact CENTCOM? And what, if any, 
significant changes will actually materialize as a result of 
the shift? And how will Central Command's capacity to perform 
its mission be affected?
    General Votel. Well, thanks, Congresswoman. I think that, 
you know, the shifts that are outlined in the National Defense 
Strategy are things that will take place over time. And so, you 
know, one of the principal ways that we are trying to manage 
that, of course, is through the development of and continued 
relationship building that we have in place with partners in 
the region and continuing to strengthen those relationships.
    One of the things that we have learned through this by, 
with, and through approach is that we can do a lot through our 
partners by providing advice, by providing expertise in areas 
where we have experience, and we can do that with the smaller 
footprint and with the, you know, correspondingly smaller 
investment. So I think one of the principal ways that we will 
address this going forward is continuing to build on these 
relationships and continuing to empower our partners in the 
region.
    Mrs. Davis. Can you just speak to the key challenges in 
doing that?
    General Votel. Well, you know, I think, certainly, one of 
the key challenges will be making sure that we don't create the 
impression that we are abandoning CENTCOM. And this, of course, 
is a key talking--or the region. And so this, of course, is a 
key talking point, not only for me, but for all leaders that 
come in there. We recognize that the interest that we have, the 
national interest that we have in this region for preventing 
attacks on the homeland, for preventing proliferation of 
weapons of mass destruction, for ensuring freedom of navigation 
and commerce through the critical straits, for ensuring other 
countries can't destabilize, those are enduring interests that 
we will always have. And so this will always require us to 
continue to be engaged there to some aspect. But, of course, 
the Secretary will make decisions on shifting resources in 
accordance with the National Defense Strategy.
    Mrs. Davis. Thank you. You also talked about local 
solutions, and we know how critical that is, as you have just 
mentioned. I am wondering if you could also talk about the 
inclusion of women as a critical strategy that advances 
countering terrorism, national security, and democratization 
and economic and social development. Some of those programs 
have been successful, but there certainly is more to be done. 
How can we increase the effectiveness of these programs?
    General Votel. Well, I think the best way we can do it is 
by sharing our experiences with this. We learned by our 
inability to include women into many of our counterterrorism 
operations back in the beginning of these fights that we have 
been involved in, that we are missing 50 percent of the 
population in doing that. And when we began to introduce them 
into positions where they could have influence, we learned a 
lot from that. So I think one of the key things that we can do 
is continue to lead by example in this area and demonstrate how 
this is valued by us.
    We do see partners in the region doing this. The Afghans 
are doing this. The Iraqis are doing this. We certainly see 
this with the Syrian Democratic Forces that we are working with 
in Syria. And I would highlight to you that one of the 
principal commanders that they have, a very successful 
commander, is a female. And so it is very much recognized that 
contributions come from the entirety of the force.
    Mrs. Davis. Thank you. I appreciate that. I think that a 
number of us have participated in those efforts, and I hope 
that we can continue to do more of that. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    General Votel, recently, the United Nations released a 
remarkably gruesome report outlining North Korea's ongoing 
efforts to assist Syria building chemical weapons. This report 
states that North Korea has been shipping supplies to the 
Syrian Government, including acid-resistant tiles, valves, and 
thermometers. Additionally, North Korean missile technicians 
have been observed working at chemical weapons and missile 
facilities in Syria.
    Are you able to comment on the U.N. report? And if not, 
could you describe the malign and disruptive role North Korea 
currently plays in Syria and whether or not you see their role 
expanding in the coming years? Additionally, what is being done 
to disrupt this cooperation between the dictatorships of North 
Korea and the Syrian Government?
    General Votel. Congressman, I admit, I have not seen that 
report, so I can't comment specifically on it. Obviously, we 
are concerned about the proliferation of these type of weapons 
in Syria with a country that has demonstrated the intent to use 
them. So this will be an area that we will continue to pay 
close attention to.
    Mr. Wilson. And it is so important. I was actually 
pleasantly surprised that The New York Times covered it today. 
My experience with that newspaper is they frequently overlook 
threats to stability in the world, but I urge your 
consideration.
    Also, a primary concern for the long-term stability of the 
Middle East surrounds a return of defeated Islamic State 
fighters who are returning home from fighting in Iraq and 
Syria. An estimate from The Soufan Center and The Global 
Strategy Network have tracked 5,600 fighters who have returned 
to their home countries. Specifically, sadly, Turkey has 900 
returning and Saudi Arabia has 760 returning.
    Could you explain what threat the return of the defeated 
Islamic State fighters to their home country represents to the 
long-term stability in the region? And can you explain the 
proposed or ongoing efforts to work with ally nations in 
dealing with this flow of fighters?
    General Votel. Thank you, Congressman. Well, certainly, 
these fighters that are able to depart these war zones are able 
to take with them experiences and tactics that could 
potentially be applied to other places. Additionally, they are 
radicalized so they have the ability to bring others onboard 
with this. These, I think, are the principal concerns. This has 
been at the forefront of our efforts from the very beginning. 
As you have heard the Secretary talk about our strategy of 
annihilation, in the conduct of our operations, we have always 
attempted to isolate these areas and prevent the escape of 
these fighters so that they are either killed or captured where 
we take them on, and I think we have been successful in that. 
Certainly, there are some that have gotten away.
    We have, with the support of some of the authorities that 
have been provided to us by Congress, we do have an effective 
program to interdict foreign fighters as they attempt to depart 
the area. And we are now working with the Department of State 
and the Department of Justice to ensure that these hundreds 
that are in the control of our partners in both Iraq and Syria 
are moving into a judicial process that holds them accountable 
and, ultimately, returns them to the countries from which they 
came.
    Mr. Wilson. And what a challenge that is. The detainees you 
are speaking of, not just fighters, but their families. And 
this has just got to be addressed, and I appreciate you 
bringing that issue up.
    Additionally, Turkey has been a valued ally, for nearly a 
century, of the United States. A member of NATO, beginning with 
the Korean War, they have been fighting side by side with 
Americans for freedom. What is being done to continue our 
important alliance?
    General Votel. Thank you, and I would just echo your 
comments. Turkey has been absolutely vital throughout the 
entire campaign plan. They certainly have serious concerns of 
PKK [Kurdistan Workers' Party] terrorism. Of course, this has 
created some tension with some of the partners we have on the 
ground.
    The principal way that we are addressing this, Congressman, 
is by being transparent and clear and candid with Turkey about 
the things that we are doing on a day-to-day basis with our 
partners. Just this morning, I had a conversation with my 
counterpart in Turkey, again, sharing information back and 
forth, keeping the communication channels professional and open 
as we discuss this very, very difficult challenge that we are 
working through.
    Mr. Wilson. And with the multitude of issues you have to 
face, Yemen, what is the latest on efforts to provide security 
in working with Saudi Arabia?
    General Votel. I would say, you know, our effort in this 
setting is principally to help them defend themselves, and I 
think we have made some very good progress in this area. And I 
look forward, in the closed session, to sharing with you some 
examples.
    Mr. Wilson. We appreciate your service. Thank you.
    General Votel. Thank you.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask you, there was a column in The Wall Street 
Journal, I believe in their opinion section maybe about 4 days 
ago, that talked about where they allege that there was a 
Russian attack on U.S. special operation forces on the evening 
of February the 7th and 8th. And I specifically wanted to ask 
you what you know about that, and how can CENTCOM prioritize 
U.S. counterterrorism objectives while trying to avoid any sort 
of dangerous escalation with Russia?
    General Votel. Thank you, Congressman. You know, I think we 
have kind of characterized that as pro-regime forces. You know, 
we are certainly aware of the amount of media that is out there 
talking about this. But in this particular instance, this was a 
very clear case of self-defense on our part. And so I, frankly, 
am quite proud of the way the force responded to this: quickly 
identified it, immediately got on the net to our Russian--our 
channel here to talk with them about this--we were talking with 
them before, during, and after this--and very effectively 
brought together the right capabilities to address this self-
defense threat. And so they have continued to do that.
    So, you know, I think what I would just tell you is that we 
retain sufficient capability to protect ourselves at the same 
time that we are pursuing our counterterrorism objectives in 
Syria.
    Mr. Veasey. Do you think that Russia is going to want to 
try to have more influence or diminish our influence in the 
region once we push ISIS out of there, or how do you see that 
relationship, you know, playing out long term?
    General Votel. Well, I think what I would say, Congressman, 
is what we see is Russia has failed to follow through on 
delivering the regime in a number of different areas. As we 
look at the U.N. sanctions, cease-fire that was put in this 
place, one that they helped draft and agreed to implement and 
to cause the regime to comply by it, they have failed to do 
that. So I think either Russia has to admit that it is not 
capable or it doesn't want to play a role in ending the Syrian 
conflict here. I think the role is incredibly destabilizing at 
this point.
    Mr. Veasey. I would also like to briefly kind of switch 
here and ask you just a little bit about Afghanistan too. I 
know that there have been some that have been concerned about 
our deteriorating relationship with the Pakistanis, and was 
wondering, how important do you think it is for us to continue 
to have relationships with Pakistan, keeping routes open, so we 
can adequately supply troops in the Afghanistan part of the 
Middle East? And just what are some of your thoughts on that 
whole relationship and, particularly, just how it lines up with 
Afghanistan?
    General Votel. Congressman, my view is that success in 
Afghanistan and South Asia will require a strong relationship 
and the cooperation of Pakistan. And since the announcement of 
the South Asia strategy, this has been one of my principal 
focuses here, is to help Pakistan and us together, achieve the 
specific things that we require for them, we have asked them to 
do in support of our strategy.
    And what I would report to you and to the committee is that 
I do have very frequent and routine professional communications 
with my counterpart. We talk almost weekly. We meet frequently 
face-to-face. And my goal is to develop this very productive 
and trustful relationship that will help us move forward 
together. I can't characterize the relationship as trustful at 
this particular point. There is a lot of history here that has 
to be overcome.
    But what I will also tell you is that we are now beginning 
to see positive indicators. They, through their communications, 
they are reporting to us some of the actions that they are 
taking on the ground. These are positive indicators that they 
are moving in the right direction. It does not yet equal the 
decisive action that we would like to see them take in terms of 
a strategic shift, but they are positive indicators. And it 
gives me hope that our approach is the right one. I have 
confidence in our approach, and it gives me hope that we can 
begin to restore this very important relationship.
    Mr. Veasey. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And, General, thank 
you for your service.
    You have barely mentioned Lebanon and we hardly ever talk 
about Lebanon. But there are so many problems there, and in any 
other part of the world, it would be front and center in the 
headlines all the time. But with all the other problems in 
CENTCOM, it takes a backseat.
    But given that Hezbollah is a U.S.-designated terrorist 
organization and that the Lebanese President has been very 
public in his support of Hezbollah as a military partner with 
the Lebanese Armed Forces, and given that we have, in the past 
anyway, supplied high-quality American arms to the Lebanese 
Armed Forces, do you think we should keep working with the 
Lebanese Armed Forces and giving them high-quality American 
weaponry, and are they a reliable partner?
    General Votel. Congressman, I think they are a very 
reliable partner. And I think the investments that we have made 
over the last 10 or 11 years, very moderate investments in 
terms of people and money, compared to some of the other things 
we do, have really paid off. And they are helping us develop a 
very professional Lebanese Armed Forces that is beginning to be 
viewed as the principal security arm in Afghanistan.
    And I note your comment here about it doesn't appear in the 
news, but, frankly, Lebanon is a frequent stopping place for me 
and for all of my commanders, and we pay a lot of attention to 
this relationship. We have an outstanding ambassador there who 
is a very, very engaged in the activities, and we are very 
proud of what Lebanese Armed Forces are doing. They very 
effectively last fall, on their own, orchestrated a pretty 
effective operation against ISIS. They view us as their most 
important partner, and I do think it is an investment worth 
continuing.
    Mr. Lamborn. But doesn't the relationship between the 
cozying up to Hezbollah within Lebanon to the conventional 
forces there give you pause?
    General Votel. Well, I tell you, I frequently interact with 
the chief of defense there. I consider him to be a very 
professional military officer. You know, this is a 
multiconfessional arrangement here in Pakistan that obviously 
trips over into the political environment, but what I observe 
in Lebanon is a military that is answerable to the leadership, 
is doing a good job at staying apolitical, and is focused on 
security of the country.
    Mr. Lamborn. Okay. Shifting gears to Saudi Arabia, are we 
doing enough to help them and the United Arab Emirates defend 
themselves, as was discussed a little earlier, from Iranian-
supplied missiles to the Houthi rebels? Are we doing enough?
    General Votel. In this setting, I would say yes, we are. We 
are definitely focused on this particular threat right here, 
and I look forward to sharing a few more comments with you 
about this in the closed session.
    Mr. Lamborn. Okay. Thank you. Now, in Yemen, the U.S. 
military has conducted a much higher number of strikes against 
terrorist targets last year than in 2016, the previous year. 
What positive impact, if any, have these strikes had on AQAP 
[al-Qaida in the Arabian Peninsula] and on ISIS in Yemen--or 
excuse me, Islamic State in Yemen?
    General Votel. Thank you, Congressman. It has had, I think, 
a very significant impact on AQAP. Certainly, it has impacted 
their ability to conduct external operations. It has gone into 
the areas in which they have had sanctuary, and it has 
continued to present them with multiple dilemmas that they have 
to deal with. So not only are they contending with our strikes, 
but they are also contending with partner operations that we 
work with our Arab coalition partners on the ground and with 
our Yemeni partners on the ground. And this has become very, 
very effective.
    And I would tell you that we are extending that to ISIS in 
Yemen as well. That is not as well developed as al-Qaida is, 
but, of course, it is ISIS. We understand their ideology. We 
understand where they are going. And so we are very concerned 
about them as well.
    Mr. Lamborn. Okay. Thank you. And lastly, I would like to 
ask about the 4th Infantry Division at Fort Carson in my 
district. They are sending a brigade combat team to Afghanistan 
this spring. And even though we have had budget shortfalls for 
the military in recent years, we have made huge steps with this 
latest budget agreement to beef up military spending, which I 
totally applaud and support. So I think readiness will be less 
of an issue in the future, but do you feel good about the 
current state of readiness with, for instance, the brigade 
combat team going to Afghanistan this spring?
    General Votel. Congressman, I do. I haven't had an 
opportunity to visit that specific brigade, but I just had an 
opportunity to visit one of the brigades that is coming in, the 
Security Force Assistance Brigade. I am extraordinarily 
appreciative of the efforts that are put forth by the Army, by 
the Marine Corps, the Air Force, all the services here that we 
depend upon in Afghanistan to give us high-quality forces.
    Mr. Lamborn. Thank you.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, General 
Votel, for your service and for being here.
    I would like to talk a little bit more about what you began 
with in your opening statement and some of the comments you 
have made since about U.S. military objectives in Syria. You 
talked about how you are working to defeat ISIS and bring that 
campaign to a responsible close. Later, you mentioned that 
countering Iran is not a coalition mission in Syria. Last 
month, we heard from Secretary Tillerson about how U.S. 
military presence in Syria will remain for an indefinite period 
of time. And he went on to list a very expansive list of 
strategic objectives of the U.S. military, to include ensuring 
the defeat of ISIS, to include diminishing the influence of 
Iran, advancing U.N.-led political resolution, et cetera, et 
cetera.
    So my question is: What is the objective of our U.S. forces 
in Syria? And under what legal basis is this indefinite 
presence in Syria planned under?
    General Votel. Thank you. So the principal reason we are in 
Syria is to defeat ISIS. And that remains our sole and single 
task that we are principally oriented on. Part of defeating 
ISIS, though, is removing their control of the physical 
caliphate, the physical terrain, as you are well aware, and 
ensuring they can't resurge. So that means that after we have 
removed them from their controlled terrain, we have to 
consolidate our gains and we have to ensure that the right 
security and stability is in place so that they cannot resurge. 
So that is part of being responsible coalition members in here, 
and that will take some time beyond all of this.
    Our legal basis for operating in Syria was largely driven 
by the collective self-defense of Iraq. But when we first went 
there, ISIS, being an organization that did not adhere to 
sovereign boundaries, were moving back and forth across the 
area. And while we were beginning to address ISIS in Iraq, we 
knew that we also had to address ISIS in Syria.
    I would also point out, Congresswoman, that the Syrian 
regime itself has proved unwilling and unable to address this 
particular threat. While they did do some operations down in 
the middle Euphrates Valley here several months ago, they have 
largely departed that area, and they have taken the pressure 
off of ISIS and created more problems for the coalition in 
dealing with this.
    So, you know, I think those are the principal----
    Ms. Gabbard. So our U.S. forces are still operating under 
the 2001 AUMF. Is that correct?
    General Votel. We are.
    Ms. Gabbard. And does countering Iran--I am just seeing 
some contradiction between what the Secretary of State is 
saying, that that is now going to be a part of the U.S. 
military objective in Syria, and what you stated today, saying 
that countering Iran is not a part of the coalition mission.
    Just a follow-up to that, if it is, then how does that fall 
under the 2001 AUMF that deals directly with countering al-
Qaida and its affiliates?
    General Votel. I think my understanding as the Secretary of 
State laid this out is he laid it out not as a U.S. military 
objective, but he laid it out as a U.S. objective. So there are 
certainly other ways that we can address Iran's destabilizing 
activities and other than through military means.
    The fact of the matter is, as I mentioned a few moments 
ago, even though Iran isn't our principal focus here in this 
campaign, our relationship with partners both in Iraq and in 
Syria does put us in a position where we can indirectly have an 
impact on the objectives that Iran is pursuing in this part of 
the world. So I think I would characterize it more in that 
regard than us actively doing something militarily against 
Iran.
    Ms. Gabbard. Thank you. I believe Secretary Tillerson was 
quite specific in speaking about this within the justification 
of a maintained U.S. military presence there.
    My last quick question is about Yemen, and under what 
authorization are we providing arms and direct military support 
to Saudi Arabia in what is essentially a proxy war between 
Saudi Arabia and Iran?
    General Votel. Well, any armed sales, of course, go through 
our foreign military sales and foreign military funding process 
that is managed by the Department of State, and so they have 
the principal oversight for that. The provision of fuel to 
Saudi aircraft is provided for under the Acquisition Cross-
Servicing Agreement that we have in place with Saudi Arabia. 
And so that provides us the authority to provide that support 
to them.
    Ms. Gabbard. Thank you.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Votel, thanks so much for joining us today. I 
wanted to begin by getting your perspective. You speak about 
Navy presence in the Gulf and the Red Sea, and we think about 
CENTCOM as being land-centric. But we also see, as you 
specifically point out, the first overseas Navy base put in 
place by the Chinese in Djibouti. We see in Port Doraleh a 
single berth there reserved for the Chinese Navy. We see 
President Xi Jinping, through a modernization of his military, 
looking to very aggressively expand and sustain operations 
around the world.
    From your perspective there as CENTCOM commander in that 
AOR, specifically what do you see our U.S. Navy doing to 
counter this Chinese expansionism? And what do you need as far 
as U.S. Navy presence there to make sure that we have what is 
necessary there in relation to what we see as Chinese 
aggressive expansion?
    General Votel. Thanks, Congressman, I appreciate the 
question. I would share--I am an Army guy saying this, I would 
share that while we do think about the land territory in 
CENTCOM, it very much is a maritime theater with the three 
critical chokepoints that, you know, are so important to us in 
this area. So I do recognize that.
    I would just tell you that I think, certainly, the 
resources that are being provided to me, the maritime resources 
that are provided to me by the Navy and the Marine Corps, I 
think are adequate to the task that we have right now. I think 
the principal way that we develop resilience against these 
types of, you know, great power influences in this area is 
through, first of all, our presence, our constant presence, and 
we do maintain a constant presence in both the Red Sea, the 
Gulf of Aden, into the Arabian Gulf, and the Gulf of Oman as 
well, and through our very close partnership with our partners. 
We have three combined maritime task forces that are led out of 
our naval headquarters in Bahrain that include a variety of 
different nations.
    So when I look at the nations that are on our team and I 
look at the nations that are lining up with some of these 
others that are entering in the area, I think our teams are 
very strong. And I think this is a very key way for us to 
maintain our influence and pursue our interests in the CENTCOM 
maritime environment.
    Mr. Wittman. Very good. Last year, the U.S. Naval Office of 
Intelligence pointed out some challenges there with potentially 
placing the mines that would put at risk commercial vessels 
there near Bab-el-Mandeb Strait. Give me your perspective, not 
only on what that potential threat is, because we see Houthis 
operating in the area, obviously, shooting at U.S. ships. Give 
me your perspective on what we are doing in minesweeping our 
operations there, looking to counter that potential threat for 
mines, because we know that that is a chokepoint area that is 
strategically very important.
    General Votel. Thank you. Well, we certainly maintain 
minesweeping capabilities in the Gulf and have for a number of 
years, but so do our partners. And I would just point out, you 
know, some of our partners, like the Emirates and Saudi Arabia, 
have some very good capability in this regard. And so one of 
the things that we do is work with them to optimize their 
capabilities. Again, by, with, and through getting them to use 
their capabilities and using our intelligence and some of our 
experience to help them be more effective at this.
    And so this, I think, has been very effective in 
preventing, you know, a major mine catastrophe, if you will, in 
the Bab-el-Mandeb, one that we are very concerned about. Sixty 
to seventy ships a day go through the Bab-el-Mandeb, not just 
ours, everybody's. So this is a very real threat that we have 
to pay attention to.
    Mr. Wittman. Do you currently have intelligence gathering 
operations to look at what is happening in Bab-el-Mandeb Strait 
about the activities that are going on there, what we can do to 
maybe counter that, or the things we can do to interdict it? 
Because, obviously, keeping a mine from being laid is a lot 
better than having to go in and sweep those particular areas, 
especially from a time perspective. Give us your perspective on 
what is happening there.
    General Votel. Congressman, I would say in this setting, we 
absolutely do, and I would look forward to sharing the details 
with you in a different setting.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair. General Votel, thank 
you for being here today.
    America has been engaged in Afghanistan for 16 years, and 
it is difficult to determine what progress we have made. The 
administration's new strategy increased its troop levels to 
14,000 troops. However, unable to learn from history, we are 
investing more lives and resources without clearly defined 
benchmarks. I am extremely concerned about the fact that 
significant information is being withheld from the Office of 
Inspector General for Afghanistan's Reconstruction and, 
ultimately, the American people.
    According to the inspector general, quote: ``It is hard to 
make a determination of how good a job we are doing, because if 
the Afghan military is not fighting that well, and there are 
not many of them, we can't determine fraud, waste, and abuse in 
Afghanistan.''
    Because they can't get basic facts from the Department, how 
are you measuring progress in Afghanistan? Please describe the 
end state. What does success look like to you? Currently, what 
is the amount of territory under the Afghan Government's 
control? And help me understand how withholding information has 
made a difference in our operations in Afghanistan.
    General Votel. Thank you, Congressman. I will take your 
last one here. We are aware of that issue, and I think measures 
are being taken to address that right now. Some of that 
information is not necessarily U.S. Government information. It 
is information of the Afghan Government, and so they control 
the release and classification of that information. So this is 
something we have to continue to work with.
    Mr. Carbajal. General, if I could just interrupt you. It is 
great to parlay that to the Afghan Government, but we are the 
ones with resources and the lives of our military there. So we 
have got to be able to get some information from them to 
appease those of us that have to make decisions on what kind of 
investments we need to make in the area.
    General Votel. Thank you, Congressman, and I am committed 
to making sure that you do have those details.
    You asked also about kind of how we are looking at the 
situation right now. What I would tell you is, the big idea 
here with what we are trying to do in Afghanistan right now, is 
drive towards reconciliation. This is different than the 
approach we have had in the past. And we are trying to do that 
through creating, not just military pressure with our military 
activities on the ground, but we are trying to do it through 
creating social pressure with things that the Afghan Government 
is doing, like credible elections that they are pursuing this 
year at the parliamentary level and the national level next 
year. And we are doing it through creating diplomatic and 
regional pressure, just as we talked about with Pakistan a few 
moments ago.
    The idea here is that creating pressure on all of those 
three axes are going to create enough pressure on the Taliban 
that they come to the table. What is different this time as we 
approach this is that we are taking a conditions-based approach 
that is focused on reconciliation as its end state. It is a 
regional focus here, and we are engaging the partners in the 
region, not just Pakistan, but the Central Asian states as well 
who are key to this.
    And we have changed the way that we are working with the 
Afghan forces. So we previously had advised down to a very low 
level with their Afghan special operations forces. We are now, 
with the additional enablers and additional advisers that the 
Department has approved for us, are taking that capability and 
extending it out to their conventional forces. We are building 
out the Afghan Air Force. We are doubling the size of their 
Afghan special operations capability. So there are a variety of 
different aspects to this approach. This will give us the 
ability to measure the progress.
    You asked about how much of the population is controlled by 
the Afghan Government. Today, the figure is 64 percent. Twelve 
percent of the population is in areas that are controlled by 
the Taliban, and the balance of that are in contested areas. 
Our focus, the focus of our military operations is on 
increasing and expanding population control by the Government 
of Afghanistan. And what we are going to do this season is we 
are going to--our intention is to break the stalemate, grab the 
initiative, begin to expand population control this year and 
next year, and then ensure that we create an environment here 
that allows for credible elections to take place, one of the 
most important things that the Afghan people need to see from 
their government.
    Mr. Carbajal. We are running out of time. What about 
information, the sharing of information with the inspector 
general?
    General Votel. As I mentioned, Congressman, we will do our 
very best to ensure that you have the information that you need 
to make the decisions that are necessary.
    Mr. Carbajal. Thank you so much.
    I yield back, Mr. Chair.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. General, thank you for 
being here.
    I want to talk with you a little bit about ISR 
[intelligence, surveillance, and reconnaissance] in the CENTCOM 
area. And I know you have got a lot of partners in that area, 
but what percentage of the ISR does the United States provide?
    General Votel. I am not sure I can tell you what the 
percentage overall is. I mean, it is very clear that the 
majority of the ISR in the region is being provided by the 
United States.
    Mr. Scott. What about the DOD's capacity to meet the demand 
for ISR? Do you have enough ISR currently?
    General Votel. Well, I think, Congressman, I don't think 
you are going to find any commander that is going to say that 
he has enough ISR. We right now, today, have the largest 
concentration of MQ-9s down in Kandahar Airfield designed to 
support General Nicholson and his forces, and I know that is 
adequate for what he needs right now. But given his own 
druthers, I am sure he would want more. And so we would want 
more in all these areas.
    Mr. Scott. I understand that the Army in some ways and 
commanders are agnostic as to the different platforms that ISR 
may come from, but I assume that when it comes to providing 
additional ISR, the commanders would not be agnostic to the 
timeline to get new ISR to the field. Would that be a fair 
statement?
    General Votel. That is right. I think the faster we can 
continue to provide those capabilities, the better.
    Mr. Scott. So one of my concerns, and I certainly have a 
tremendous amount of respect for the Secretary of Defense and 
the Secretary of the Air Force as well, but as they have 
changed the strategy to more of a China or Russia strategy, 
they are canceling the procurement or have proposed to cancel 
the procurement of items that are not capable of flying against 
the Russians or the Chinese or in a direct conflict with the 
Russians and the Chinese.
    One of these platforms is the new JSTARS [Joint 
Surveillance Target Attack Radar System], the recapitalization 
of the JSTARS, which we have spent hundreds of millions to 
develop and are now currently ready to purchase. And they have 
proposed to cancel the procurement of the JSTARS because they 
have said that they are going to use a system that has not been 
developed yet, which, obviously, changes the timeline on when 
we can deliver that system to you.
    I guess my question is: Do the systems that you use in 
Central Command have to be survivable, if you will, in a 
conflict that would be as high end as that between the Russians 
and the Chinese, a direct conflict?
    General Votel. Well, they don't necessarily need to be. I 
mean, the environment is different in parts of CENTCOM than it 
might be in other parts of the world. So, you know, some of the 
requirements that I have, the environment that we operate in, 
are probably different than what Admiral Harris and others, and 
General Scaparrotti, you know, deal with, and PACOM [U.S. 
Pacific Command] and EUCOM [U.S. European Command], 
respectively, here.
    Mr. Scott. I would appreciate any advocacy you could have. 
I agree with you 100 percent, and I am not opposed to the DOD 
developing the system that they want for the fight against the 
Russians and the Chinese. But even in developing that system, 
we don't want to use that system unless we have to because we 
don't want the Russians and the Chinese to be able to gather 
the intel that they are going to gather from it every time we 
fly it.
    So we certainly continue to be concerned about, as we shift 
in strategy to China and Russia, abandoning platforms that work 
in the other parts of the world which are very serious fights 
that we are in and that you are commanding right now.
    I am down to about a minute, but just briefly, if you 
would, again, I have been on the border of Syria and Israel. 
The military objectives in Syria, can you just outline for us 
what they are again very briefly?
    General Votel. Well, specifically, it is to ensure--
principally, it is to ensure an enduring defeat of ISIS is what 
the principal objective is of our military campaign right now 
in Syria. You know, certainly we are concerned about the 
weapons of mass destruction, in terms of some of their chemical 
capabilities. As you have seen in the past, we are obviously 
very concerned about making sure we can provide the 
humanitarian aid, the stability that goes along with getting 
people back into their homes. We are concerned about making 
sure that we protect allies that are on the flanks of Syria--
Jordan, Lebanon, Turkey--that all feel the impacts of that. 
And, of course, we are very keen to ensure that there is a 
political resolution to all of this. Of course, that is beyond 
my military----
    Mr. Scott. General, my time has expired, but it is a tough 
situation. I am glad that we have a leader like you over there 
and thank you for your service.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you Mr. Chairman.
    And, General Votel, thank you for your leadership and for 
appearing before the House Armed Services Committee to discuss 
the readiness, the posture, and the activities within CENTCOM. 
So thank you.
    I want to bring your attention back to Iran and its 
activities in Syria, perhaps covering some ground that has been 
covered and hopefully clarifying at least one point that you 
made. Iran is playing a very large role in Syria, providing 
senior advisers to the Assad regime, delivering weapons, cash, 
recruiting, and encouraging foreign fighters.
    Last month, Iran launched a drone that entered Israeli 
airspace. There was a series of events resulting in the downing 
of an F-16. The situation is clearly escalating and at greater 
risk.
    You mentioned, in response to Ms. Cheney's question, that 
we can impede Tehran. Can you just identify what those 
strategic and/or operational impediments are that we are 
putting in Tehran's way, and can you evaluate the effectiveness 
of them?
    General Votel. Well, I think some--as I mentioned, I think 
one of the things that we can do is we can build strong and 
resilient partnerships with our partners, whether it is the 
Iraqis on their side of the border or whether it is, you know, 
kind of the Syrian Democratic Forces. At this point, that is 
our partner on the ground.
    You know, in many regards, these partners share the same 
concerns we do with this, that they don't want their countries, 
they don't want their areas exploited by others for purposes of 
creating instability in this area.
    So the relationships that we develop with them, Iraqi 
forces, you know, particularly their border control forces, I 
think help aid and prevent the movement of these types of 
activities and equipment back and forth across their borders. I 
think the Iraqis are as concerned about that as we would be and 
as most countries would be.
    And, certainly, I think in Syria, although I do acknowledge 
our partners on the ground are a very indigenous partner, they 
do control very important areas along the border between Iraq 
and Syria. And so they can as well, through their own 
operations, make it difficult for Iran to pursue their 
activities through these particular areas. And so that is why I 
kind of describe it much more in an indirect way as----
    Mr. Brown. If I may, General, so that sounds a little bit 
aspirational and I appreciate that. Can you evaluate the 
effectiveness of what you just described?
    General Votel. Well, I think we are working on how we 
actually do that. I mean, most of these networks are very 
resilient. They are very savvy in terms of how they are doing 
things. So this is something that we are looking at now, how we 
measure the effectiveness of it.
    I mean, we are only in this case largely talking about 
ground routes. Certainly, Iran has the ability to use air 
routes as well to basically go over or around all of that. They 
have the ability to use maritime routes. They have the ability 
to go through Africa to get to these areas as well.
    So, you know, we have to look at this holistically as we 
try to address this.
    Mr. Brown. So let me ask one other question, perhaps the 
last in the time I have remaining. I understand that Israel is 
in the EUCOM AOR. You know, conflict in that region doesn't 
necessarily respect the area of operations of our different 
commands. Can you talk about in the event, regardless of the 
likelihood, of a conflict between Iran and Israel, regardless 
of how it is provoked, can you just comment on what our 
readiness--in this setting, perhaps it is best for the 
classified setting--our readiness and posture to come to the 
aid of Israel?
    General Votel. Again, I think that is probably a question 
that is best suited for General Scaparrotti, but what I would 
tell you----
    Mr. Brown. For readiness and posture? That wouldn't involve 
CENTCOM?
    General Votel. Right. Given that it is in his area and he 
has the principal responsibility for that relationship.
    What I would tell you is this, is that, you know, the 
CENTCOM area, not just on the Israeli border, but certainly on 
the border of Egypt with Libya, on the border of Pakistan with 
India, to the north of the Central Asian states with Russia, it 
is a tough neighborhood. And so it is imperative for the 
combatant commanders to be very well-nested across all of these 
areas.
    And I think, under the leadership of our chairman and with 
the National Defense Strategy that the Secretary has put in 
place, that we are improving significantly our ability to 
operate in cooperation with each other and in many cases very, 
very seamlessly.
    So it is not unusual for General Scaparrotti and I to have 
a lot of coordination and talking across our common areas of 
concern, just like it is not uncommon for General Waldhauser in 
AFRICOM [U.S. Africa Command] and I to talk or Admiral Harris 
and I to talk about the things on his side.
    So this is an area where we have really got to continue to 
pay attention to, and I think we are doing a much, much better 
job of this.
    Mr. Brown. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    General Votel, good to see you again. I have three 
important questions. I will be as fast as I can. The first is 
about this attack on U.S. forces in Syria, media reports 
alleging it is by Russian mercenaries.
    Can you comment at all if we have confirmation that, in 
fact, those were Russian mercenaries, number one? How many do 
you think were killed? And do we have any confirmation that 
that was approved or ordered by the Kremlin or Putin? And what 
do you think their objective might have been?
    General Votel. Congresswoman, I am not sure I can report 
anything different than you have seen in the media and in the 
press on this right now, in terms of numbers and attribution of 
who this is. What I can tell you is that, throughout this 
entire event, we were in communications on our communication 
channel with the Russians before, during, after. And what they 
told us is these were not their forces and not their military 
forces.
    So, you know, I think that kind of speaks for itself here 
in terms of what they are. And then, of course, we have seen 
all the media that has come out after this. So, to me, it 
highlights, again, the unwillingness, inability of the regime 
and pro-regime forces to take seriously the ISIS threat, 
particularly if there is apparent contracted forces in the area 
attempting to do this.
    Ms. McSally. So do you believe they were not Russian 
mercenaries, and do we have any intelligence to corroborate or 
confirm or deny that?
    General Votel. None that I would discuss in this particular 
setting.
    Ms. McSally. Could we maybe discuss in the follow-on 
setting?
    General Votel. I would be happy to talk with you.
    Ms. McSally. But do you personally believe that they were 
not Russian mercenaries at this point, or can you not even say 
that?
    General Votel. We have characterized them as pro-regime 
forces at this point.
    Ms. McSally. Okay. I look forward to following up in a 
classified setting.
    The second topic is A-10 Warthog was back in Afghanistan 
kicking butt in January. Can you comment on the types of 
missions that they are doing? And I know it is a little 
specific, but as part of the shift in strategy, it seems like 
we are now going after more of the sources of revenue perhaps 
overall in attacking the, you know, poppy industry and the 
drugmaking facilities. And how is the A-10 doing over there?
    General Votel. A-10s are doing great. They were in action 
within 24 hours of being on the ground here. And I have had an 
opportunity to visit the squadron and meet the squadron 
commander, and very, very proud of what they are doing. And 
they are doing the things that we would expect the A-10s to do.
    Part of our concept and why we are pushing adviser teams 
down to a lower level is so that we can bring capabilities like 
the A-10 to bear very effectively in support of the Afghan 
National Defense Forces. And so that is what we expect they are 
doing.
    You are correct: One of the things that has been successful 
and we have tried to carry over from our defeat-ISIS campaign 
is going after the revenue generation and, in this case, the 
narcotrafficking that fuels the Taliban. And so this is a key 
focus for General Nicholson and our forces at this point.
    Ms. McSally. Great. Thanks. I do want to note if the last 
administration got their way, all the A-10s would be in the 
boneyard by now. And as I told this President, you are going to 
have to pry them out of my cold dead hands, because it is such 
a critical warfighting capability. And I appreciate this 
committee and leadership working to keep that asset so we can 
be doing missions like this.
    The last topic is I am really concerned about the buildup 
on Israel's northern border, so southern Syria, of Iranian-
backed militias and forces, Quds Force commanding that, and the 
increased aggression we are seeing from there, as the Assad 
regime seems to be shoring up controlling that area, and the 
potential for escalation of a crisis with Israel.
    Again, I know that's EUCOM's AOR, but Syria is yours. So 
can you speak to what you are seeing in the trends in the Golan 
area and whether there is a threat there?
    General Votel. I think we share the same concerns that you 
have just highlighted right here. And, you know, what this is--
you know, very effectively in this southwestern corner of 
Syria, we have been able to diplomatically begin to address 
that. And so working with the special Presidential envoy, Mr. 
McGurk, and others, we are continuing to keep focus on that.
    Again, Russia is a party to this and they have 
responsibilities to ensure that, you know, the detractable 
partners that may be in this area are under control. And so 
they have to take responsibility for this and be held 
accountable, not just the Iranians but the others that are down 
there that are much more akin to the violent extremists down 
there. So I think we have to continue to address that in this 
particular aspect.
    Ms. McSally. Can you share any of the trends that you are 
seeing, increase in military capability we have seen, again, 
with the escalation over the last few weeks, and any concerns 
you have about that escalating into a full-blown crisis with 
Israel?
    General Votel. Well, I think what I am concerned about is 
in these places down in the southwest and particularly up in 
places like Idlib, these are becoming collection zones for a 
lot of unsavory organizations right here, and eventually, they 
are going to have to be dealt with. And so I am concerned that, 
left unaddressed, that they will become bigger problems.
    In terms of trends and stuff like this, I can't tell you in 
the southwest, particularly in this setting, that we have seen 
anything specific here in terms of this, but obviously there 
are some concerns. But what we have seen in places like Idlib 
and others is where these groups that have come together do 
potentially pose long-term challenges for security of the 
region, above and beyond Syria.
    Ms. McSally. Great. Thanks. I am over my time, but I look 
forward to discussing further in the closed session. Thanks.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General, great to see you again. Thank you for your great 
service to the Nation. It is a pleasure to have you back before 
the committee once again.
    I would like to continue on the Iran topic as well and do a 
deeper dive on this topic. So Iran supports numerous proxies: 
Hezbollah in Israel, Lebanon, and Syria; the Houthis in Yemen; 
and militias in Iraq. Iran is using its militias and insurgents 
abroad to upset the existing order and sow chaos, obviously. In 
addition to proxies, Iran uses other asymmetric means, like 
cyber operations and information warfare, to expand its 
influence in the region.
    So can you explain how you have seen Iran utilize these 
techniques during your tenure as CENTCOM commander to create a 
land bridge through Iraq and Syria to Lebanon, and if you think 
they have been effective in increasing their influence through 
this strategy?
    General Votel. Thanks. Thanks, Congressman. Some of this 
discussion probably I think is best set for a closed session 
here, but, you know, I think, you know, what Iran attempts to 
do is by creating proxy organizations that can go out there and 
do their bidding, that can operate in areas in which they have 
interests. I think they are attempting to do that. And I do 
think we see some instances of that as we look at some of the 
undisciplined Shia militia organizations that are here that are 
much more beholden to Iran than they are to, say, the 
Government of Iraq. This is very concerning to us, and I think 
this gives us indications that they are acting not on behalf of 
the government they say they are representing but on behalf of 
another party.
    Mr. Langevin. Okay. Good. I look forward to following up on 
that question too once we are in the closed session.
    So the war in Syria has left hundreds of thousands dead, 
millions either internally displaced or seeking asylum as 
refugees. But as the fight against ISIL transitions to 
consolidating gains and building stability, it seems as if some 
of the groups that have formed partnerships of convenience may 
now turn their attention towards fighting each other instead.
    So how do you see these various elements aligning 
themselves in Syria, and do you worry about a potential 
shifting regional balance of power, and do you feel the Syrian 
Kurds might feel slighted by recent events and align more 
closely with Iran to ward off threats?
    General Votel. Yes. So, first off, Congressman, what I 
would say is, with the partners that we operate, the Syrian 
Democratic Forces, we have not necessarily seen infighting 
among themselves here in terms of that. I mean, it is a large 
organization, roughly half Kurd/half Arab, and with some others 
thrown in there, Yazidis and others, Turkmen, that are involved 
in this group. But, frankly, they, in my estimation, have 
continued to be pretty coherent in terms of how they are doing 
this.
    I guess the way I would describe it is that, as we are 
completing the defeat of ISIS, I think what we are now 
beginning to see is the reemergence of many of the underlying 
issues that have always been in place in Syria. And as we have 
converging forces in the area, we are now seeing diverging 
interests.
    And I think we see this down in the middle Euphrates Valley 
between the focus of the coalition and our partners on the 
ground and what the pro-regime element is focused on. They are 
less concerned about rooting out ISIS than they are about going 
in and addressing some of the opposition elements to the 
regime.
    So I think what we--I think what we have to be mindful of 
is that, as the caliphate goes away and as the threat of ISIS 
is removed, we will begin to see more of a return to the 
underlying challenges that really gave birth to many of these--
to this problem and other problems in the country. And those 
are ultimately going to have to be addressed through some type 
of Geneva process that brings the parties together to, you 
know, establish some kind of process and arrangement that 
allows Syria to be the country that it should be.
    Mr. Langevin. It seems that we are at that tipping point 
right now where the State Department has to play a stronger 
role in working with the powers that have interests there and 
try to bring about a political solution. So I hope we are going 
to be pursuing that on dual tracks.
    I see my time is about to run out, so I will hold my 
questions for the closed session, but, again, thank you for 
your service, General, and I will yield back.
    The Chairman. Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, General Votel, for your testimony today.
    A couple of areas that I have not heard discussed. Could 
you give us your thoughts on Turkish operations in Afrin and 
its partnering with al-Qaida affiliates, its attacks on U.S.-
backed forces, and how that will impact the by, with, and 
through strategy to make a stable border security force?
    General Votel. Congressman, I think some of that will 
probably be reserved for the closed session here. But, you 
know, I think we have acknowledged that Turkey has some 
concerns, has some significant concerns along their border with 
longstanding PKK interests. Our concern, of course, is that 
this activity in Afrin is detracting from our efforts against 
ISIS.
    Mr. Russell. And then kind of a broader scope on that. What 
actions do you think are needed to prevent this mixture of 
Erdogan-Putin counter-efforts to secure the hard-fought gains 
against ISIS?
    General Votel. Well, I think as I mentioned in my opening 
statement, as I have said a couple times here, I really view 
Russia as being at the heart of many of these issues here.
    And I am being very serious when I say they play the role 
of both arsonist and fireman, fueling tensions and then trying 
to resolve them in their favor and manipulating all the parties 
they can to try to achieve their objectives--their objectives--
and not necessarily the broader objectives of the international 
community here.
    So I think there certainly has to be more accountability 
and pressure put on Russia to do what they said they were going 
to do.
    Mr. Russell. Do you think that that pressure could come 
from the other instruments of national power from the United 
States on our NATO ally in Turkey?
    General Votel. I think they can come from a variety of 
different sources, Congressman.
    Mr. Russell. And then I guess can you speak also to the 
need to interdict the ISIS/al-Qaida migration into sub-Saharan 
Africa, AQ Maghreb, Boko Haram, others, see a lot of that now, 
that as they have been pushed out of one area, that they may 
drift over to the other, and how that would cooperate between 
the combatant commands.
    General Votel. Well, certainly, we are very cognizant of 
what AFRICOM is dealing with with their partners on the ground 
in Sahel and the Maghreb here and very, very concerned about 
that. I think one of the principal things that we can do is 
continue to share information back and forth.
    Frankly, we are not seeing mass migration of these 
fighters. I won't tell you that they are probably not getting 
out with refugees and others that are doing that. That probably 
is occurring. But certainly, this is a concern long term.
    And so I think one of the things that we are attempting to 
do is, particularly now that we have so many foreign fighters 
that have been captured and are in some level of detention with 
our partners here, is try to get the international community 
engaged in taking responsibility for their people and bringing 
them to some level of justice. There is a lot that can be 
learned from these foreign fighters, and we have to make sure 
that we have exploited that and learned as much as we can so we 
can prevent it, but we also need to make sure that they are put 
back into the judicial process so they can be dealt with by 
their countries from which they came.
    Mr. Russell. Then I guess the last question I have would 
be, could you give your assessment of Egyptian and Saudi 
combined efforts on Yemen and the status of Yemen?
    General Votel. With respect to the status of Yemen, I 
think, obviously, Yemen is very destabilized at this particular 
point. Not only do they have a civil war going on, they have 
kind of a proxy war playing out here between Iran and Saudi 
Arabia, with Iran introducing advanced technology into there. 
We see the enabled Houthis trying to challenge navigation in 
the Bab-el-Mandeb, and, of course, they have a counterterrorism 
problem that we are very focused on.
    So, you know, I think, from the counterterrorism 
standpoint, I think we are making very good progress in this 
particular area. I don't see significant changes in the civil 
conflict that is taking place, that is largely being 
orchestrated by the Arab coalitions on the ground there. They 
certainly need to put some more effort into that. We are paying 
attention to the efforts by our diplomats and others here to 
try to address this politically. There had been--there has been 
some opportunities in the past that have not come to fruition 
yet, and I think we still have to continue on in this area.
    But I think Yemen is an area that we should all be 
concerned about, because we are seeing all kinds of problems in 
that particular area and, on top of it, huge humanitarian 
issues. The people are suffering greatly.
    Mr. Russell. Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you. I want to thank the general for being 
here today and thank the ranking member and the chairman for 
this important hearing.
    I would like to speak a little bit about sanctions on Iran 
and Russia, and what is your opinion and how would implementing 
sanctions or what level of sanctions, if any, do you think 
would influence activities in the Middle East, specifically 
Russia and Iran?
    General Votel. Well, Congresswoman, we don't really manage 
those within the Department of Defense and certainly not within 
CENTCOM. I do know that the Secretary has recently provided 
some information to Senator Corker and others with regards to 
CAATSA [Countering America's Adversaries Through Sanctions Act] 
and some of the other things regarding sanctions out here, and 
I think those kind of represent his interest.
    You know, I think sanctions are a very important part of 
this. In most of these threats--and I think as I tried to 
mention in my opening comments, this is a team sport. And so we 
can do things militarily, but we also need the other 
instruments of our national power, whether it is diplomatic, 
whether it is economic, whether it is informational, to really 
kick in on these things. And when we are able to bring all of 
those together, to include things like sanctions, I think we 
often have the best effects.
    And so, you know, I think there are certainly some very 
good areas where sanctions will make a difference. We do have 
to look at the impact of those on some of our partners, and we 
have to be mindful of that. I do think granting waiver 
authority to the Secretary of State with regard to some of 
these things is a good approach and gives us the flexibility 
that we need in these regards, but, you know, I look at it as a 
key part of the whole-of-government approach.
    Ms. Rosen. So you feel you are getting enough support in 
this regard?
    General Votel. I do. And I certainly know this is a 
continuing area of topic in other parts of the government.
    Ms. Rosen. Thank you.
    I also want to switch over and talk about Syria a little 
bit. And so where does the communication stand after Russian-
aligned troops, of course, attacked our partner forces in Syria 
in early February? So how are things going there? And our 
strategy of deconfliction with Russian mechanisms, has that 
been helpful?
    General Votel. Congresswoman, there has been no change in 
the communication channel that we have had. Our deconfliction 
channel remains a very professional military discussion. It was 
before, and it has been since. And so it remains an effective 
way to deconflict our forces and make sure our airmen stay safe 
and our people on the ground are safe.
    Ms. Rosen. Thank you.
    I yield back my time.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Just to follow up briefly on something Mr. 
Russell said, what do we say to our NATO allies in Ankara 
regarding our support for Kurdish elements in Syria, the YPG, 
and other elements? What message do we communicate to them?
    General Votel. The message that I have conveyed is that our 
Kurdish partners, part of the Syrian Democratic Forces, a 
multiethnic force that consists in equal measures and actually 
in greater measures of Arabs than Kurds, has been the most 
effective force on the ground in Syria against ISIS. And we 
need them to finish this fight. So I think that is the first 
thing and really one of the principal things we have to 
acknowledge to them. I think we also have to acknowledge their 
concerns about this. And so our attempts to try to be as 
transparent and clear in terms of what we are doing and our way 
forward I think are things we have to continue to emphasize to 
them.
    Mr. Gallagher. Do they simply make no distinction between 
the PKK and the elements that we support on the ground in 
Syria?
    General Votel. Well, they don't draw that distinction. And, 
of course, that is the tension.
    Mr. Gallagher. To follow up on something Ms. Cheney said 
earlier, or that you said in response to her question, that it 
is not part of the coalition effort to counter Iran in Syria, 
how would you characterize our strategy in Syria vis-a-vis 
Iran? What are we trying to do to Iran in Syria?
    General Votel. Well, I think our broad U.S. Government 
objective here is to limit Iran's influence in Syria, because, 
as we have seen, they are attempting to arm and motivate 
fighters that could pose threats to our other vital partners 
here. And so, you know, I think as a government, we have 
interest in trying to limit their influence and activities in 
this part of the region.
    Mr. Gallagher. I don't want to spend my remaining time on a 
semantic debate, but I just would say if their influence is 
gaining in Syria and we need to limit that, I sort of think 
that necessarily involves us countering their gains in Syria. 
So perhaps some clarity, or let me rather say, what is our 
strategy? How would you characterize our strategy vis-a-vis 
Iran throughout the rest of the region?
    General Votel. I would characterize our strategy as deter, 
assure, and compete. We have to have capabilities in place to 
deter Iran's use of ballistic missile capability against our 
partners, and we have to ensure that we can deter their ability 
to race to a nuclear weapons capability.
    We have to always assure our partners in the region. As I 
think I have said several times here, our partnerships, when 
you line up our coalition versus their coalition, ours is much 
more capable. And so continuing to develop those relationships 
is really very important and assuring our partners that we are 
going to be there with them.
    And then we have to compete with them not just militarily 
but with our other instruments of power, in the areas that we 
can. And this is pushing back, rolling back on their influence, 
pushing back on their narrative where we can, and then, in the 
areas where we must, preventing them from moving their weapons 
and other things around the theater that pose threats to our 
partners.
    Mr. Gallagher. But does that rollback, that competition 
sort of reach a limit in Syria? Is there some reason we are 
being less aggressive there? You sort of mentioned Iraq as an 
area where we are competing more effectively with them.
    General Votel. I think my point is only that, as we form 
the coalition, the defeat-ISIS coalition, that, you know, has 
both a military and a political component to it, that one of 
the objectives that has not been assigned to us is countering 
Iran. It has specifically been focused on the ISIS mission. So 
I think that is what I am trying to emphasize.
    Mr. Gallagher. And then, in Iraq, do you think we are 
actively or effectively competing with them? And I am thinking 
specifically of, you know, one of the biggest phenomena in the 
last year has been the rise of the PMF [Popular Mobilization 
Forces] and, you know, some of these groups may be able to be 
incorporated in the ISF [Iraqi security forces], but others are 
terrorists, you know, taking orders from the IRGC [Islamic 
Revolutionary Guard Corps].
    General Votel. Well, I think, you know, certainly 
addressing the PMF is something that the Prime Minister will 
have to do, and in many regards, he has done that. But, again, 
I think one of the best things we can do on the ground in Syria 
is being a really good and valued partner to the Iraqi security 
forces, and I think the assistance that the United States and 
the coalition did I think demonstrated that.
    And in my engagements with the security force leaders that 
I talk to on a regular basis, I think they deeply value that, 
and they appreciate it, and they look forward to maintaining 
that relationship in the future.
    Mr. Gallagher. I have run out of time. Thank you, sir.
    The Chairman. Mr. Suozzi.
    Mr. Suozzi. General, I want to thank you so much for your 
service and the great work of everyone under your command 
throughout the regions that are under your command.
    My particular concerns are about Afghanistan that I briefly 
discussed with you before the hearing began. And the special 
inspector general's report on Afghan reconstruction reports 
that we are not making progress as far as population centers 
and how much we control. In fact, we lost a little bit of 
ground from the last report.
    And I support what the military is doing. I supported the 
effort to increase the number of troops recently. And I think 
that you have a very clear strategy as far as the five points 
of help the Afghan Army, helping the Afghan special forces to 
increase their size and effectiveness; increase the 
collaboration between the Afghan Air Force and the Army; as 
well as replace their platforms with American equipment as 
opposed to Russian equipment; help the police; and put more 
pressure on Pakistan. It is a clear five-point strategy that 
makes tremendous sense, and you are doing a very effective job 
of clearing and holding area.
    The problem is the backfilling. And in your prepared 
testimony, you talked about how Kabul's uncertain political 
situation remains the greatest risk of stability. And you went 
on to say that ``the Government of the Islamic Republic of 
Afghanistan continues to suffer from a professional 
governmental capacity deficit, competing interests, and 
corruption.'' And my concern is that your colleagues on the 
civilian side do not have a clear plan the way that the 
military has. So I want to ask you, who do you see as being 
your clearest partners with General Nicholson on the civilian 
side in this effort, and what do you perceive their strategy to 
be? If you could put it in a succinct way, because I don't see 
them putting out a clear succinct plan on the civilian side. So 
you are clearing and holding, but when it comes to rebuilding 
and transitioning, they are not laying out a clear plan. So I 
just want to ask you to comment on that, please, General.
    General Votel. Thank you, Congressman.
    I think that the principal partner that we would look to on 
the U.S. side certainly is the Ambassador and the country team. 
And, you know, I do think we have a very outstanding Ambassador 
on the ground. I think he is very engaged in this. And I think 
we are beginning to address many of these things that you have 
talked about.
    As I mentioned to you, in many regards the military 
missions in many of these countries really are the easy part of 
addressing the situation. And the more difficult part is the 
political resolution that has to take place afterwards, because 
this is when you have to address the deep underlying issues 
that, you know, oftentimes gave way to the conflict that we 
just resolved.
    As I think I mentioned to you beforehand, you know, 
tomorrow in Kabul, President Ghani and, you know, certainly 
with the support of our Embassy, will be hosting the Kabul 
Process conference that will address both reconciliation and 
counterterrorism and will be an opportunity with 25 nations 
brought in to help do that.
    There are efforts underway with our Department of State 
interlocutors to help devise ways to move forward with 
reconciliation. It is extraordinarily complex. The Taliban is 
not a singular contiguous group to deal with. It is broken. It 
is fractured. And so not only do we have to look at 
reconciliation, we have to look at things like reintegration as 
well.
    So, you know, the task in front of our diplomats to solve 
this I think is an extraordinarily complex one as they move 
forward. And I do think this certainly is a challenge here, but 
I do think that they are moving forward in ways to begin to 
address this effectively here as we apply military, social, and 
diplomatic pressure to bring the Taliban to the table.
    Mr. Suozzi. So, General, in your testimony, you also--thank 
you very much for that, by the way. In your testimony, you 
talked about how Pakistan is starting to share more information 
and collaborate more than they had historically. What is your 
prognosis with Pakistan? What do you see happening in real time 
other than the sharing of information, and what can we hope to 
expect as far as progress regarding the governing of the 
ungoverned areas?
    General Votel. Well, you know, I would say that, first off, 
I think it is important to recognize that Pakistan has 
actually--you know, Pakistan as a country has suffered greatly 
from terrorism, perhaps as much as anybody in the region and 
maybe as much as anybody around the world. And they have taken 
a number of measures to address terrorism within their borders, 
and that has contributed over the years to, you know, some 
increased security in the area, and we have to recognize that 
upfront.
    So our approach I think is to continue to be engaged with 
them. We want to have a candid discussion. I think I do. We 
want to have frequent communication. We want to build trust in 
this relationship. The history of the United States and 
Pakistan, there is a very long history here. We do share many 
interests, and they share many things in common with us 
culturally, militarily, politically, in terms of what we are 
doing, but we have to continue to work with them to move them 
in directions that cause them to make strategic changes in 
their approach. And that is really what we are aimed at. I 
don't know that we can put a time limit on that, but, as I 
mentioned to you, we are seeing some positive indicators, and 
we have to ensure that we don't overlook these as we move 
forward and we continue to build on these, and this is what my 
objective is with my counterparts.
    Mr. Suozzi. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Thank you, General, for your service and for being here.
    There is no place in the world where Iranian-backed proxy 
forces are a stabilizing feature of the terrain, is there?
    General Votel. Not that I would--I would not characterize 
it that way, Congressman.
    Mr. Gaetz. So, in July of 2015, we have the birth of the 
JCPOA. From that point in time until today, would we say that 
Iran has made the same investment in their proxy forces, a 
reduced investment in their proxy forces, or an enhanced 
investment in their proxy forces?
    General Votel. I think I would characterize it as an 
enhanced investment in their proxies and partners.
    Mr. Gaetz. So, since the JCPOA, we have got Iran putting 
more money behind proxy forces that are destabilizing in 
literally 100 percent of the circumstances in which they exist. 
In August of 2017, the Iranian Parliament votes to increase 
their military spending.
    Are there particular capabilities that we think may emerge 
from that, particular tactics that Iran is investing in as they 
use more of the cash that they now have access to to be a 
destabilizing hegemon?
    General Votel. Well, Congressman, I mean, as I mentioned 
earlier, I think, as we look at the Iranian threat, I think 
what we have seen is not only an increase quantitatively but, 
in some cases, an increase qualitatively in some of the 
capabilities that they have developed.
    They are using the opportunity of things like Yemen to--you 
know, like we go out to China Lake to test our weapon systems. 
They go to Yemen to test their weapon systems. So they are 
taking advantage of these opportunities to improve their 
capabilities around the world. So I definitely am concerned 
about this.
    Mr. Gaetz. You also test some great weapon systems off my 
district in northwest Florida we are very proud of. My district 
is also home to the 7th Special Forces Group. They do a great 
deal of work in the CENTCOM AOR, and frequently they return 
home and then deploy to SOUTHCOM [U.S. Southern Command] AOR to 
find themselves fighting a very similarly flavored enemy in 
radical Islamic extremists funded in many circumstances by Iran 
through their terror proxies.
    Are there areas within CENTCOM's AOR where there are 
training activities, where recruits are being brought in from 
other parts of the world, particularly the Western Hemisphere, 
and then essentially redeployed after receiving training in the 
CENTCOM AOR?
    General Votel. I am not sure I can answer that in this 
particular setting here. I am sure that there probably are.
    Mr. Gaetz. Okay. We may chat about that a little later 
today then. Are there particular capabilities in the 
development of Iran's terror proxies that we find them 
particularly investing in, whether that is drone technology, 
whether that is guerilla capability, the development of 
explosives?
    General Votel. I think all of the above. I think these are 
all tactics that we have seen in the past. You know, certainly 
we are concerned about the increasing use of missiles, of all 
short-range, medium-range missiles, and that type of stuff is 
very concerning. Their use of UASes [unmanned aerial systems] 
is a particular concerning emerging threat for us here that we 
are concerned about.
    But I think one, you know, of the other things is that, you 
know, I think as we look at what Iran did in--what it took Iran 
to do, took 20 years for Iran to do in Lebanon with the 
Lebanese Hezbollah, they are attempting to do in about 5 years 
with the Houthis in Yemen. This is very concerning to us.
    So I think they are accelerating their pace in their 
ability to do this, and this is something we have to be very 
concerned about.
    Mr. Gaetz. I completely agree. And I would add to the list 
activities in the Western Hemisphere where that very same game 
plan that we have seen Iran run in Syria, then on the Arabian 
Peninsula, and now in our own backyard would continue that 
troubling trend line with an increased boost in volume and in 
quality.
    As we look at the particular missile systems that you 
mentioned and the areas where they may be used, I look 
particularly to our ally Israel as a point of vulnerability. Do 
we see the--or in what capacity do we see the Iranians 
hardening their positions in southern Syria, and what feedback 
have we gotten at the mil-to-mil level from our ally Israel 
about their discomfort with that?
    General Votel. In this setting, I would just say I think we 
have seen and we have seen in public media releases here, you 
know, Israel has struck at some of these locations here that 
they have posed a threat to them.
    So, you know, I think in this setting, I think I would 
leave it at that, that there certainly are some concerns there.
    Mr. Gaetz. Great. Well, thank you, Mr. Chairman. I look 
forward to our next setting.
    I yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, General.
    We recently heard from Admiral Harris that munitions have 
been a great concern for him in PACOM. CENTCOM has obviously 
been using a lot of munitions in the counter-ISIL fight. So 
please describe for me the state of our current munitions in 
CENTCOM, and are you getting what you currently need?
    General Votel. Congressman, we are. And I would be happy to 
take it for the record and give you some more detail on this. 
But what we did in CENTCOM here over the last--with the support 
of the Department, was put in controlled supply rates for our 
key munitions here, and we have been managing that for some 
time. Certainly, the success we have had in Iraq and Syria has 
resulted in a lowered use of that, which has allowed us to 
cross-level within the theater to Afghanistan to address our 
issues.
    I won't comment on the broader Department-wide challenge 
with this, but I think we are being well supported right now in 
CENTCOM.
    Mr. Gallego. Good. So, to follow up a little on that then, 
from where you stand, are the other combatant commands, 
especially EUCOM, are they keeping their stocks at the 
appropriate levels they need, anticipating the kind of 
adversaries----
    General Votel. Congressman, I think that is probably a 
better question for them. I can't comment on their stockage.
    Mr. Gallego. Switching gears then, would you call Qatar a 
dependable partner?
    General Votel. I think Qatar has been a dependable partner 
to us. Certainly, we have our--my forward headquarters is 
located in Qatar. We have our air operations center there. I 
think they have been good partners to us in the past.
    Mr. Gallego. Is the discord between our GCC [Gulf 
Cooperation Council]--other partners outside of Qatar and 
especially between the Saudi and Qatar in regards to the bloc, 
has that affected any of our operations in CENTCOM?
    General Votel. It has not had a significant impact on our 
military activities. And we have made this very clear from the 
beginning that we would not allow that, and I think we have 
largely been successful in mitigating most of that.
    Mr. Gallego. I yield back.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    And, General, thank you for being here today.
    Can we go back to Afghanistan for a moment, and could you 
comment more specifically on how tenuous is our 39-member-
nation coalition? Is it continuing to weaken, or do you have 
more of an optimistic outlook on where our coalition is heading 
forward?
    General Votel. I think our coalition remains very, very 
strong in Afghanistan. You know, one of the things that 
underpins, you know, the President's roadmap for the Afghan 
National Defense [and] Security Forces was the commitment made 
by the NATO nations and the partner nations at the Brussels 
conference and in Warsaw to make sure that the support would be 
continued. And so we have seen the partner nations continue to 
sustain and in many cases increase their contributions to the 
effort.
    Mr. Banks. Just to repeat, so we are seeing in some places 
an increase. Can you mention which nations are increasing their 
commitment?
    General Votel. I think the U.K. is an example. They have 
increased some of their recent contributions.
    Mr. Banks. Okay, thank you. A moment ago, you said, in 
addressing Mr. Suozzi's comments, that Pakistan has paid a 
significant price. ``Has suffered greatly'' was your quote.
    In your testimony, though, you, quote, say: ``The Taliban 
and Haqqani leadership and fighters continue to find sanctuary 
in Pakistan,'' end quote. And then, on the next page, you talk 
about our discontinuing of IMET/FMF [International Military 
Education and Training/Foreign Military Financing] support to 
Pakistan.
    Could you dig a little bit deeper into that? I mean, what 
is working to bring Pakistan back to the table to thwart the 
Taliban and other like-minded groups in providing them 
sanctuary in Pakistan?
    General Votel. Well, you know, I think certainly the 
pressure that our government put on Pakistan as we brought out 
the strategy I think contributed to that. I think what is also 
working right now is the approach that we have in place with 
them. I think we have tried to be very clear in terms of the 
things that we need Pakistan to do for us.
    And what I have endeavored to do, not always in a public 
way but in a private way, is develop a relationship that allows 
us to provide feedback both ways. There are things, frankly, 
that Pakistan has asked of us as well. So this is a two-way 
street here. And so it is my responsibility, I think, to make 
sure that we have feedback loops in place that go back and 
forth between the things that we are doing to try to support 
each other and moving forward in that regard.
    And so, you know, I would be happy to talk a little bit 
more about this perhaps in a closed session here, but that is 
really what this is about. It is about building a bridge back, 
building the trust that has to underpin this relationship that 
has been missing from it for a long time.
    Mr. Banks. Has there been a plan to recontinue FMF and IMET 
support to Pakistan?
    General Votel. I don't think we have addressed that at this 
particular point.
    Mr. Banks. So we remain in a posture of discontinuing that 
support? Pakistan has obviously----
    General Votel. That is the current posture, and I would 
imagine hopefully in the future we will have an opportunity to 
reconsider.
    Mr. Banks. Has that been beneficial?
    General Votel. Again, I think it has created some of the 
pressure on this. In many regards, you know, Pakistan isn't 
necessarily looking for our equipment in all these cases. They 
are looking for our understanding and respect, in terms of what 
they have accomplished here. So, again, this is really about 
relationship building, and that is principally my focus here 
with my counterpart.
    Mr. Banks. Pakistan continues to provide a very important 
and strategic logistical route for our efforts into 
Afghanistan. Have you seen those logistical routes continue to 
operate fully as they have----
    General Votel. I have. I have.
    Mr. Banks [continuing]. For the past decade plus?
    General Votel. Ground lines communication, airlines 
communications, absolutely vital to us, and they have continued 
to sustain that.
    Mr. Banks. Thank you very much.
    I yield back.
    General Votel. Thank you.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    General, could you tell us how many U.S. forces we have in 
Afghanistan right now? How many service members are deployed 
there as of this moment?
    General Votel. We generally don't talk numbers in public 
here, Congressman. I would be happy to----
    Mr. O'Rourke. What can you say that we can say in a public 
setting? There is lots of reporting on this. What is a ballpark 
you could talk about?
    General Votel. We are at the level that the Department of 
Defense has approved for us in this area, and we will maintain 
that going forward.
    Mr. O'Rourke. Is that public information, the level that 
the Department of Defense has?
    General Votel. I think that the Office of Secretary of 
Defense has put some numbers out. I don't recall what their 
most recent one is, but I would be happy to follow up on that 
with you.
    Mr. O'Rourke. Okay. And so I would like to ask you, how 
many U.S. service members are in Syria or operating in Syria? I 
am expecting to get a similar answer. Are you able to tell me?
    General Votel. Right. I think, you know, that the 
Department of Defense I think has basically said around 1,700 
have been there, but, again, I would offer the same response to 
you in this.
    Mr. O'Rourke. And in answer to Ms. Gabbard's question about 
what our purpose is, you responded that the sole and single 
task is to defeat ISIS. Is that, in fact, the reason for our 
military presence?
    General Votel. That is the reason for our military 
presence.
    Mr. O'Rourke. And with the defeat of ISIS, will we no 
longer have a military presence in Syria?
    General Votel. Well, when we have completed our--when we 
have completed our mission here in Syria. It involves not only 
kicking ISIS out of the areas in which they occupy, but it also 
includes the consolidation and the consolidation of gains and 
the stability that allows us to move forward with a political 
resolution to this.
    So that has been defined for us by our leadership here, and 
so that is how we are gauging our military support. That is 
part of the mission.
    Mr. O'Rourke. The first part of your answer is clear to me. 
If there are no longer ISIS combatants on the battlefield, if 
we no longer have a threat from them, I think that is probably 
something we can measure.
    The second part sounds a little mushy. Could you define 
that in terms that I and my constituents can understand so we 
will know when we have won and when service members can come 
back from Syria?
    General Votel. Right. So what we will continue to do is 
support our partners on the ground, to ensure that we can 
consolidate our gains, we can stabilize the area, we can ensure 
that international organizations, humanitarian aid 
organizations can come back, and people can get into their 
homes. And this is about creating the security environment that 
allows that and provides the time for our diplomats to pursue 
the solution that we are seeking through the United Nations in 
Syria.
    Mr. O'Rourke. So, even after ISIS is gone, there is an 
indefinite military commitment from the United States of 
America, from the description you just gave me. What is the 
legal justification to be there after ISIS is no longer there?
    General Votel. Well, the fact is ISIS is still there, and 
that is what we are dealing with right now.
    Mr. O'Rourke. But the question I asked you is: After ISIS 
is defeated and you have accomplished the task, what is the 
legal justification for U.S. service members to be deployed in 
Syria?
    General Votel. Well, the principal thing will be to ensure 
that ISIS does not reemerge in this particular area. Even 
though they have been eliminated from controlling terrain does 
not mean that ISIS is not present in this area. I think we have 
been very clear on that. So we have to ensure that ISIS isn't 
given the opportunity to resurge here.
    With regard to your question on the legal authority of 
this, again, I would cite that, you know, the principal legal 
authority here was self-defense of Iraq in terms of this, and 
the unwillingness and inability of the Syrian regime to address 
this particular threat that posed a threat to, not just the 
country of Syria and Iraq, but really to a much broader group 
of countries around the world.
    Mr. O'Rourke. My understanding is that the administration 
has used the 2001 Authorization for the Use of Military Force, 
whose justification is premised on the attacks of 9/11 and 
stopping those who attacked this country from being able to do 
so again.
    And I think the logical conclusion of your answer to my 
question about our presence after ISIS is defeated is that the 
U.S. military can be in every country that there was ever an 
ISIS presence just so that there will not be an ISIS presence 
going forward, and I think that is a recipe for disaster. We 
will not have successful oversight or accountability or 
prosecution of that war, because we cannot define its goals or 
the strategy.
    I yield back.
    The Chairman. General, what happened when we left Iraq 
completely in 2009 after we had supposedly defeated al-Qaida in 
Iraq?
    General Votel. Well, Chairman, we saw the rise of ISIS, and 
we saw the inability of the Iraqi security forces to 
effectively address it as it was growing.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    General, according to the Worldwide Threat Assessment, the 
most recent one, Director Coats and the intelligence community 
assessed that Iran's support for the popular mobilization 
committee and Shia militants remain the primary threat to U.S. 
personnel in Iraq. Do you agree with that assessment?
    General Votel. Congressman, I do think they certainly could 
pose a threat to our forces on the ground. This is something we 
are very vigilant for and are paying very, very close attention 
to. We have not seen that threat manifest itself at this 
particular point, but it is certainly something that we are 
very cognizant of.
    Mr. Hice. How is CENTCOM working with the Iraqi Government 
and other regional partners to try to address this?
    General Votel. Well, you know, certainly the Iraqi 
Government has a law in place that addresses paramilitary 
forces. And what we are doing as part of our broader security 
sector reform support that we provide to the Government of Iraq 
is encouraging them to take the steps to bring those forces to 
the right size and to ensure they have the right leadership and 
they are beholden to the Government of Iraq. So the principal 
way that we will do this is through our advice and, where 
necessary, our assistance to the Government of Iraq.
    Mr. Hice. Okay. I would like to follow up a little bit on 
Mr. Gallagher's questions a little while ago and just kind of 
an overall perspective. What is CENTCOM's role in trying to 
curb Iranian influence, particularly in Iraq, but in the entire 
region?
    General Votel. Well, you know, I think one of the principal 
roles that we have, as I mentioned, is assuring our partners 
and building partnerships around the region and helping our 
partners be resilient against this particular threat and making 
sure that they have the wherewithal to protect themselves. So 
certainly developing partnerships and assuring our partners is 
a key piece of this.
    Another key piece of this is making sure that we have the 
right military capabilities in place to deter Iran from taking 
action, particularly with their growing and increasingly 
capable missile capability that they are developing. So we have 
a deterrence role.
    And then, finally, I think we have a competition role. We 
have to challenge them for some of the things that they are 
doing. And we certainly can do that militarily, but we can also 
do that with our other instruments of national power that we 
have available for us.
    Mr. Hice. Okay. Thank you. And that actually raises some 
questions that I think would probably be more appropriate in 
our next session.
    But, with that, Mr. Chairman, I will yield back. Thank you.
    The Chairman. Mr. Bacon.
    Mr. Bacon. General Votel, thank you for your leadership, 
and I appreciate and thank the men and women who serve in the 
United States Central Command. I was a four-time deployed 
veteran of the command and proud of that.
    I would like to drill a little bit more into the Iranian 
influence in Syria itself and that specific problem set. Iran 
has propped up Assad, I think maybe more so than Russia, but 
the two together have clearly been working together. They got 
advisers. They have sent fighters to Syria. They encourage 
Hezbollah to be supportive. Shia militants from other countries 
have been sent there. They have sent weapons, cash, petroleum. 
They have recently launched a drone, it appears. I think it was 
an Iranian drone versus a Syrian drone.
    So what I am hearing from you--and please correct me if I 
am wrong, if my characterization is not right--that we do have 
a grander strategy that focuses on Iran in your AOR, but in 
Syria itself, we really don't have a strategy that limits 
Iran's influence in Syria. Is that a true characterization?
    General Votel. I am not sure I would necessarily 
characterize it that way. There are things that are appropriate 
for the military to do, and that is the angle that I talk 
about, but there are certainly other parts of our government 
and other capabilities that we have within our national 
resources that can address Iran's malign activities, whether 
they are in Syria or in other places.
    Mr. Bacon. But you would agree it would be unacceptable for 
Iran to have a long-term presence in western Syria?
    General Votel. It would be unacceptable if that presence 
resulted in threats to our other partners or in further 
destabilization of the region.
    Mr. Bacon. Would you say it is acceptable or unacceptable 
for Iran to build a land bridge from Iran, through Iraq, Syria, 
to the borders of Israel?
    General Votel. I would say it is unacceptable if the 
purpose of that land bridge is to move lethal technologies and 
advanced capabilities in the hands of other fighters who may 
use those to attack their neighbors.
    Mr. Bacon. What would you say was the purpose of Iran 
launching that drone into Israel? Was that, indeed, Iran, or 
could it have been Syrian?
    General Votel. You know, I am not sure. I think that is 
probably a better question for the Iranians here, in terms of 
that.
    Mr. Bacon. There seems to be a recent decline in Iranian 
harassment of our ships in the Persian Gulf and in the straits. 
Is that true, and why do you think that may be?
    General Votel. It is true. We have seen a decrease in some 
of the interactions that we have seen. I think this is 
principally because of some of the strong rhetoric or the 
strong--the discussion we have had about the lack of 
professionalism of Iranian maritime forces and how they operate 
in this region. I think that has got their attention.
    I also do think they are perhaps concerned about our 
stronger position on some of Iran's activities beyond just 
their nuclear weapons program here, and so they are paying 
attention to that.
    I would tell you, Mr. Congressman, that one of the things 
we are concerned about is their increasing use of UAVs 
[ummanned aerial vehicles]. So, while we may see decreases with 
some of their activities in this area, I am equally concerned 
about their increasing use of UAVs that could pose a threat to 
our maritime activities in the region.
    Mr. Bacon. Thank you. Are we actively interdicting 
shipments to the Hezbollah in Lebanon from Iran?
    General Votel. I think that is probably beyond the 
discussion in this room.
    Mr. Bacon. Going back to a previous question on Joint 
STARS, we are being asked by the Air Force to determine should 
we recapitalize the Joint STARS with a new airframe or let that 
go away and go to some new capabilities. And we are getting 
conflicting advice and counsel on that.
    I would love to have your perspective. Do you need more 
Joint STAR capabilities or less, or do you have thoughts for us 
at the HASC [House Armed Services Committee]?
    General Votel. You know, as a combatant commander, you 
know, I am very dependent upon the services to provide us the 
right capabilities. And they always do, and we are very, very 
satisfied with that. So I am less concerned about which 
platform it is on and more concerned with the capability that 
is coming our way.
    Certainly, the Joint STARS provides not only ground 
movement targeting indicator capability that is very important 
in my theater and other theaters, but it also provides, you 
know, battlespace management command and control that comes 
along with. These are key capabilities.
    What I am trying to achieve with our use of ISR is layered 
ISR. I want to be able to draw all these capabilities into an 
ISR scheme that meets our requirements in this particular 
theater.
    Mr. Bacon. Well, again, thank you for being here today and 
answering our questions. We are grateful to you.
    I yield back.
    General Votel. Thank you.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. General, thank you for 
being here. If you stick around long enough, you get to ask a 
question, whether you are good or not, if you are there.
    I guess the first question is, we have been working on 
getting some kinds of UAVs, whether they are Predators or they 
are whatevers, to our allies in the Middle East, whether it is 
Saudi Arabia, the Emirates, UAE [United Arab Emirates], and we 
have been stopped. We have even offered them the ability to use 
U.S. contractors to do it so that they can prosecute their own 
targets, and we can use them instead of using our own.
    So the question is: Can we tolerate a reality where, 
because of self-imposed constraints, we can't sell our allies 
our UAV technology, but the Chinese can--and you have already 
spoken to that point--but when it comes to technology, I think 
we are missing a big advantage there. Could you comment on 
that?
    General Votel. I think it is--you know, as you are alluding 
to here, I think the opportunity for us to improve our 
interoperability through common systems, whether it is ISR or 
other systems we have out here, I think these are always 
opportunities that we have to pursue wherever we can.
    Mr. Hunter. Do you support us sharing our UAV technology 
with our allies?
    General Votel. I certainly think it deserves serious 
consideration.
    Mr. Hunter. Thank you. The second question is: In terms of 
Iran and a ratline that goes from Iran through Syria down to 
Israel, I have got big poster boards with Soleimani with his 
arm around every single Iraqi corps commander and militia guy. 
They are all buddies. Soleimani is now handpicking the guys 
that we are equipping and training, but that is the fight that 
we are in right now.
    So the question is--and you have already spoken to this--
but specifically, do you think it is going to be possible to 
extract Iran out of Syria and Iraq if there is an end to what 
is happening in Syria? Because they are dug in deeply now.
    General Votel. Yeah. I think there certainly is an 
opportunity in Iraq through our strong relationships that we 
are developing here, and I think that, you know, one of the 
things that I have observed about Iraq over the last year has 
been their outreach to other partners across the region, 
whether it is Jordan, whether it is Saudi Arabia, whether it is 
Kuwait, whether it is Turkey, the other key Sunni nations in 
the area. And so they are very much emerging as, you know, 
trying to be much more involved in the region, which I think is 
a very positive thing. And I think it connotes the fact that 
Iraq is for Iraqis. And while they live in a difficult 
neighborhood with difficult neighbors and they have to deal 
with that, that they are principally concerned with Iraq.
    Mr. Hunter. Well, let's bring it back right now because, 
right now, we are playing the enemy of our enemy is our friend. 
That is what we are playing right now. If the Iranians are the 
major power players with weapons and our training and our gear 
right now with their handpicked militia guys, the Iraqis can 
reach out all they want to, but the power is with the Iranians 
in Iraq and Syria right now.
    Is that not where the power lies, in your opinion, the 
actual power, and I am talking power by force?
    General Votel. Well, I think there certainly is influence 
here, there is no doubt about that. But, again, I do see within 
the Iraqi leadership a very strong sense of independence and a 
desire to protect Iraq. And so I think these are things that we 
have to continue to build on.
    Mr. Hunter. So let me just lay it out then one last time. 
You are confident that in the next 10 years we are not going to 
see an Iranian-controlled ratline where the Iranians can go 
from Tehran through Syria down to Israel on a high-speed road 
with M1 Abrams tanks that we have trained them on. You do not 
see that happening?
    General Votel. Congressman, I wouldn't speculate in that 
particular regard. What I would tell you is, I think our best 
opportunity to prevent something like that is to stay engaged 
and to----
    Mr. Hunter. I wouldn't disagree with you on that.
    General Votel [continuing]. And to continue to be the 
valuable partner that we had been for them, and to continue to 
professionalize their forces and their capabilities so that 
they are beholden to themselves and not beholden to others to 
do things for them, and they don't allow their terrain to be 
exploited in the manner that you highlighted.
    Mr. Hunter. As you have seen, General, as we train and 
equip and try to pick sides, we are not always right on who we 
end up helping. And that has turned around to, you know, bite 
us a few times. And I really hope that, right now, with the 
Iranians we are not doing that in a much bigger way than we 
have messed up in the past. So thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. General, I want to follow on two questions 
that I don't think you have been asked directly. You started 
the hearing talking about considerable success in the fight to 
eliminate ISIS from controlling any territory. Is there or will 
there be a reduction in U.S. people and U.S. capabilities from 
Iraq, especially due to that success?
    General Votel. Well, as part of our alignment process there 
already has been. And, you know, the success we have had has 
given us the ability to move some of these critical resources, 
whether it is ISR or fighter aircraft or some of our 
engineering capability or medical capability that we required 
on the ground and we have been able to reposition that within 
the theater, Afghanistan in particular, to make sure that 
General Nicholson has what he needs to be successful. So we 
already have seen that.
    And, of course, as the situation continues to mature, we 
will continue to make smart decisions on this. We don't want to 
keep one more soldier, one more piece of equipment there than 
is needed to support the mission. And that is what we are 
pursuing, but we are trying to do it as smartly as we can.
    The Chairman. Yeah. Because we also don't want to repeat 
the mistakes of the past and leave completely.
    The other thing, at one point, the assessment we got was 
the most capable terrorist enemy we faced was AQAP, especially 
in their bombmaking and so forth. You have talked a little bit 
about al-Qaida and ISIS in Yemen. Is there still a terrorist 
threat that emanates from Yemen?
    General Votel. There is, Chairman, and I think--first of 
all, I think our efforts over the last year have been very 
effective at addressing many of the concerns that we had with 
al-Qaida in the Arabian Peninsula. And I think we have 
addressed their leadership, their media capability, their 
external operations capability, certainly some of their 
explosive capability that has been inherent in this 
organization.
    But I think with al-Qaida, I think it is important to 
always understand what their long-term objectives are. And they 
are a very patient and savvy organization, and I think we 
always have to be concerned about al-Qaida. And so it is 
absolutely vital to not take the pressure off now but to keep 
the pressure on them and make sure that we complete this effort 
against them.
    The Chairman. While it is a complex situation, you talked 
about the humanitarian, the Houthis, and all that is going on, 
I just think it is important not to lose sight of the fact that 
there continues to be a terrorist threat that emanates from 
there.
    I think that we are good for now. Thank you for being here.
    We will adjourn this open session, and within about 5 
minutes, reconvene upstairs. Thank you.
    [Whereupon, at 12:08 p.m., the committee proceeded in 
closed session.]    
=======================================================================

                            A P P E N D I X

                           February 27, 2018
    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2018

=======================================================================

  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. There has been some question to how many service 
members are currently serving in Afghanistan. Can you give me a current 
number?
    Does that include temporary, or rotational, forces?
    Do you have a sense of the number of civilian contractors? Who 
keeps track of that?
    How are contractors part of the by, with and thru strategy? What is 
their focus? How many contract personnel are there in Afghanistan?
    Do you anticipate needing more service members? If so, how many?
    General Votel. [The information is for official use only and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. O'ROURKE
    Mr. O'Rourke. There has been some question to how many service 
members are currently serving in Afghanistan. Can you give me a current 
number? Does that include temporary, or rotational, forces? Do you have 
a sense of the number of civilian contractors? Who keeps track of that? 
How are contractors part of the by, with and thru strategy? What is 
their focus? How many contract personnel are there in Afghanistan? Do 
you anticipate needing more service members? If so, how many?
    General Votel. [The information is for official use only and 
retained in the committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. COOK
    Mr. Cook. After recently visiting the UAE, Saudi and Egypt, I was 
left with a deep concern about the loyalties and interactions of Qatar. 
While Qatar is an ally in some respects, their deteriorating 
relationship with our other allies in the region, and their alleged 
support for the Muslim Brotherhood and relationship with Iran are 
troubling. How does General Votel and CENTCOM see our future 
relationship with Qatar playing out? Is there a back-up plan to move 
our base and forces from Qatar if the relationship deteriorates any 
further? Does he think the Qatari government is making efforts to 
improve the relationship with CENTCOM and the U.S.?
    General Votel. [The information is for official use only and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. As best you can in this open forum, can you provide 
an overview of how you are approaching cyber operations to support your 
ongoing efforts across CENTCOM? And how specifically is U.S. CYBER 
COMMAND supporting your efforts?
    a) In terms of adversarial cyber capabilities, are you more 
concerned with State-sponsored activities such as those exhibited by 
Iran, or non-state actors such as AQ and ISIS? Any concern about 
Russian cyber activities within your AOR?
    b) We have heard a great deal about the need to speed up decision-
making for cyber warfare and cyber operations. What has been your 
experience in making decisions to support cyber operations; would you 
agree with these assessments that we need to perhaps speed up the 
decision-making process, including those within the interagency?
    General Votel. [The information is for official use only and 
retained in the committee files.]
    Ms. Stefanik. This question deals with countering adversarial 
propaganda and disinformation efforts: What do you think is your most 
effective tool as a combatant commander to counter adversarial 
disinformation efforts including those posed by ISIS, Russia, and Iran?
    a) How do you work with the State Department? Does the Global 
Engagement Center support your operations? Are we doing enough? What 
else remains?
    b) The BBC recently conducted an open-source analysis that showed 
that ISIS media is showing signs of a recovery after a sharp decline. 
Does analysis match your experiences? Can you discuss recent trends in 
ISIS media and propaganda?
    c) What role does DOD play here as compared to the State 
Department?
    d) Do you have all of the authorities you need?
    General Votel. [The information is classified and retained in the 
committee files.]
    Ms. Stefanik. This question deals with the changing dynamics on the 
ground in Syria. More and more, our forces are engaging Russian and 
Syrian regime proxies, as most recently seen in the aggressive fighting 
in Der az-Zur (Dare-a-Zur). The defeat of ISIS now reveals the 
fingerprints of the larger geopolitical fight we are engaged in, 
putting at risk current authorities, frameworks, and partnerships. And, 
not to mention, the considerable risk to our forces on the ground in an 
already clouded and fractured battlefield.
    a) What is your long-term view of U.S. presence and investments in 
the region?
    b) What enduring counterterrorism capabilities do we need to be 
considering given the remaining threats on the ground ?
    General Votel. [The information is for official use only and 
retained in the committee files.]
    Ms. Stefanik. The recent incident of overseas fitness trackers that 
telegraphed the positions and data of our servicemen and women overseas 
reminds us that the Internet-of-Things continues to change the game.
    a) Can you talk about how this is impacting your approach to force 
protection. What did we learn from this recent incident and what 
changes have been made?
    b) In a broader sense, and as a combatant commander, are you 
concerned about the proliferation of more than 50 billion connected 
sensors and devices? How does this impact your intelligence frameworks 
and collection, for example?
    General Votel. [The information is for official use only and 
retained in the committee files.]

                                  [all]
</pre></body></html>
